      Department of Homeland Security





                Massachusetts’ Management of 

            Homeland Security Grant Program Awards 

               for Fiscal Years 2008 Through 2011 





OIG-13-44                                     February 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                        FEB 28 2013

MEMORANDUM FOR: 	            David J. Kaufman
                             Acting Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   Massachusetts’ Management of Homeland Security Grant
                             Program Awards for Fiscal Years 2008 Through 2011

Attached for your action is our final report, Massachusetts’ Management of Homeland
Security Grant Program Awards for Fiscal Years 2008 Through 2011. We incorporated the
formal comments from the Office of Policy, Program Analysis and International Affairs and
the Commonwealth of Massachusetts in the final report.

The report contains 11 recommendations aimed at improving the overall effectiveness of
the Commonwealth of Massachusetts’ management of State Homeland Security Program
and Urban Areas Security Initiative Grants. Your office concurred with 8 of the 11
recommendations. Based on information provided in your response to the draft report, we
consider recommendations 1 through 3, 6 through 9, and 11 resolved. Once your office has
fully implemented the recommendations, please submit a formal closeout letter to us
within 30 days so that we may close the recommendation(s). The memorandum should be
accompanied by evidence of completion of agreed-upon corrective actions and of the
disposition of any monetary amounts.

Recommendations 4, 5, and 10 remain unresolved. As prescribed by the Department of
Homeland Security Directive 077-01, Follow-Up and Resolutions for Office of Inspector
General Report Recommendations, within 90 days of the date of this memorandum, please
provide our office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is received
and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.
                         OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment




                                             2

                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   

   Executive Summary ............................................................................................................ 1

   

   Background ........................................................................................................................ 2 

   

   Results of Audit .................................................................................................................. 2 

   

          The Commonwealth of Massachusetts’ Grant Management Practices ................ 2 

           

          Homeland Security Strategies ................................................................................ 3 

          Recommendation ................................................................................................... 6 

          Management Comments and OIG Analysis ........................................................... 7 

           

          Performance Measures .......................................................................................... 7 

          Recommendation ................................................................................................... 9 

          Management Comments and OIG Analysis ........................................................... 9 

           

          Obligation of Grant Funds ...................................................................................... 9 

          Recommendation ................................................................................................. 11 

          Management Comments and OIG Analysis ......................................................... 11 

           

          Management and Administration Expenses ........................................................ 12 

          Recommendations ............................................................................................... 13 

          Management Comments and OIG Analysis ......................................................... 14 

           

          Procurement Practices, Property Records, and Expenditure Review ................. 15 

          Recommendations ............................................................................................... 19 

          Management Comments and OIG Analysis ......................................................... 20 


   Appendixes
    

              Appendix A: Objectives, Scope, and Methodology ........................................... 22 

              Appendix B: Management Comments to the Draft Report .............................. 24 

              Appendix C: Description of the Homeland Security Grant Program ................. 46 

              Appendix D: Number of Days Elapsed Between Required Obligation and 

                           Availability .................................................................................... 47 

              Appendix E: Potential Monetary Benefits ......................................................... 48 

              Appendix F: Major Contributors to This Report ................................................ 49 

              Appendix G: Report Distribution ........................................................................ 50 


www.oig.dhs.gov                                                                                                                OIG-13-44
                      OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


   Abbreviations
           CFR     Code of Federal Regulations
           DHS     Department of Homeland Security
           EOPSS   Executive Office of Public Safety and Security
           FEMA    Federal Emergency Management Agency
           FY      fiscal year
           HSGP    Homeland Security Grant Program
           M&A     management and administration
           OIG     Office of Inspector General
           SHSP    State Homeland Security Program
           SPR     State Preparedness Report
           THIRA   Threat and Hazard Identification and Risk Assessment
           UASI    Urban Areas Security Initiative




www.oig.dhs.gov                                                           OIG-13-44
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual States’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for the Commonwealth of Massachusetts.

   The audit objectives were to determine whether the Commonwealth of Massachusetts
   distributed and spent State Homeland Security Program and Urban Areas Security
   Initiative grant funds effectively and efficiently, and in compliance with applicable
   Federal laws and regulations. We also addressed the extent to which grant funds
   enhanced the Commonwealth of Massachusetts’ ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters. The Commonwealth of Massachusetts was awarded approximately
   $122 million in State Homeland Security Program and Urban Areas Security Initiative
   grants during fiscal years 2008 through 2011.

   In most instances, the Commonwealth of Massachusetts distributed and spent the
   awards in compliance with applicable laws and regulations. However, the
   Commonwealth needs to update and improve its Homeland Security Strategies, develop
   a performance measurement system to assess preparedness, obligate grant funds
   within required time limits, and strengthen onsite monitoring of subgrantees to ensure
   their compliance with Federal procurement and property management requirements.
   More than $4 million in questioned costs was identified, primarily resulting from the
   Commonwealth exceeding the limitations on management and administration expenses
   in fiscal years 2008 through 2011.

   To improve in these areas, the Federal Emergency Management Agency (FEMA) and the
   Executive Office of Public Safety and Security in Massachusetts should provide more
   guidance for and oversight of the grant process. Our 11 recommendations call for FEMA
   to initiate improvements which, if implemented, should help strengthen grant program
   management, performance, and oversight. FEMA concurred with 8 of the 11
   recommendations. Written comments to the draft report are incorporated as
   appropriate and are included in appendix B.




www.oig.dhs.gov                               1                                      OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, ensuring that adequate plans are in place and validated, defining
   capabilities required to address threats, providing resources and technical assistance to
   States, and synchronizing preparedness efforts throughout the Nation. Appendix C
   contains a detailed description of the interrelated grant programs that constitute the
   HSGP.

   HSGP guidance requires the Governor of each State and Territory to designate a State
   Administrative Agency to apply for and administer grant funding awarded under the
   HSGP. The State Administrative Agency is the only entity eligible to apply for HSGP
   funds. The Governor of Massachusetts designated the Executive Office of Public Safety
   and Security (EOPSS) to serve as the State Administrative Agency for the
   Commonwealth of Massachusetts.

   EOPSS was awarded more than $122 million in HSGP funds during fiscal years (FYs) 2008
   through 2011. This included approximately $56 million in State Homeland Security
   Program (SHSP) funds and approximately $66 million in Urban Areas Security Initiative
   (UASI) grant funds. During this period, EOPSS awarded the SHSP and UASI grant funds
   to 4 Homeland Security Planning Regions, the Metropolitan Boston Homeland Security
   Region (Boston UASI), 10 State agencies, and 6 other organizations.

   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires DHS OIG to audit individual States’ management of SHSP
   and UASI grants. This report responds to the reporting requirement for the
   Commonwealth of Massachusetts. Appendix A contains details on the objectives,
   scope, and methodology of this audit.

   Results of Audit
           The Commonwealth of Massachusetts’ Grant Management Practices

           In most instances, the Commonwealth of Massachusetts distributed and spent
           SHSP and UASI awards in compliance with applicable laws and regulations.
           However, the Commonwealth’s grant management practices can be improved by:


www.oig.dhs.gov                                2                                       OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           •	 Updating and improving the objectives in the State Homeland Security
              Strategy (State strategy) and the UASI Homeland Security Strategy (UASI
              strategy);

           •	 Establishing performance measures to assess overall Commonwealth
              capabilities and preparedness;

           •	 Obligating grant funds to subgrantees within the required time period; and

           •	 Better monitoring of its Homeland Security Planning Regions to ensure
              compliance with procurement, property, and expenditure documentation
              requirements.

           These deficiencies existed in the Commonwealth because FEMA and EOPSS
           provided insufficient guidance and oversight for grant management. As a result,
           the Commonwealth could not effectively measure and assess its capabilities and
           emergency preparedness. Additionally, more than $4 million in questioned costs
           were identified, primarily resulting from the Commonwealth exceeding the
           limitations on management and administration (M&A) expenses in FYs 2008
           through 2011.

           Homeland Security Strategies

           The Commonwealth of Massachusetts had an outdated Homeland Security
           Strategy, which had not been updated since 2007. According to FY 2011 FEMA
           guidance, States and UASIs should update their Homeland Security Strategies
           every 2 years. Although EOPSS officials recognized the need to revise its
           strategy, the office delayed the revision until after FEMA issued the National
           Preparedness Goals. As a result, the Commonwealth may have spent HSGP
           funds on outdated risks, needs, goals, or objectives. Without current and
           defined goals and objectives, the Commonwealth of Massachusetts could not
           effectively measure progress toward improving its preparedness, prevention,
           response, and recovery capabilities.

           The Commonwealth of Massachusetts’ State and UASI strategies did not include
           objectives with measurable target levels of performance, nor did they include
           evaluation plans to monitor progress toward achieving objectives. On July 22,
           2005, DHS issued DepartmentfoffHomelandfSecurityfStatefandfUrbanfAreasf
           HomelandfSecurityfStrategyfGuidancefonfAligningfStrategiesfwithfthefNationalf
           PreparednessfGoal. According to the guidance,f“an objective sets a tangible and
           measurable target level of performance over time against which actual
www.oig.dhs.gov                               3                                 	     OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           achievement can be compared, including a goal expressed as a quantitative
           standard, value, or rate.” In addition, to ensure the success of a strategy, the
           State or urban area must guarantee that it has an evaluation plan to monitor
           progress, compile key management information, track trends, and keep the
           strategy on track. The evaluation plan should include a process to review and
           analyze the steps being taken to achieve the goals and objectives of the strategy,
           as well as to determine whether the right elements are being used to measure
           progress. The review and analysis process enhances the plan’s flexibility by
           providing the opportunity to validate internal and external facts and
           assumptions and to allow for adaption and revision as conditions alter.

           According to the guidance, objectives should be:

           •	 Specific, detailed, particular, and focused—help to identify what is to be
              achieved and accomplished;

           •	 Measurable—be quantifiable, provide a standard for comparison, and
              identify a specific achievable result;

           •	 Achievable—not beyond the ability of a State, region, jurisdiction, or locality;

           •	 Results-oriented—identify a specific outcome; and

           •	 Time-limited—have a target achievement date.

           The 2007 State strategy, which the Commonwealth used to guide its program
           during FYs 2008 through 2011, included 3 broad-based goals and 18 objectives,
           but none included target completion dates and therefore were not time-limited.
           Furthermore, although the goals and objectives addressed the four mission areas
           and eight National Priorities, the steps to implement them were not always
           specific. Nor were the objectives measurable; that is, they did not provide a
           standard for comparison or identify an achievable result. Table 1 shows
           examples of deficiencies in the 2007 State strategy’s objectives.




www.oig.dhs.gov                                 4                                  	       OIG-13-44
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Table 1. Deficiencies in the 2007 State Homeland Security Strategy

            Goal                             Objective                      Deficiencies
            1. Create a Common               Pursue effective prevention    The objective is not:
            Operating Picture among          efforts through analysis of    • Specific
            Homeland Security and            risks.                         • Measurable
            Public Safety Stakeholders                                      • Time-limited
            2. Strengthen and Expand         Integrate public health        The objective is not:
            Partnerships for Prevention      preparedness into homeland     • Specific
            and Preparedness                 security efforts.              • Measurable
                                                                            • Time-limited
            3. Focus of Private Sector       Enhance recovery capability.   The objective is not:
            and Public Participation in                                     • Specific
            Prevention and                                                  • Measurable
            Preparedness                                                    • Time-limited
           Source: EOPSS, State Strategy Plan.

           The Urban Area Working Group, consisting of one member from the City of
           Boston and members from eight surrounding municipalities, was responsible for
           developing the UASI strategy. Similar to the State strategy, the 2010 UASI
           strategy contained objectives that were not specific, measurable, or time-
           limited. The UASI strategy had seven goals and 30 objectives, none of which
           included target completion dates. Table 2 shows some examples of deficiencies
           in the UASI strategy’s objectives.




www.oig.dhs.gov                                      5                                       OIG-13-44
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Table 2. Deficiencies in the 2009 UASI Homeland Security Strategy 

            Goal                         Objective                             Deficiencies
            2. Strengthen                Enhance programs designed to          The objective is not:
            Infrastructure Protection    protect critical infrastructure and   • Specific
                                         key resources against multiple        • Measurable
                                         hazards and threats, and reduce       • Time-limited
                                         the level of risk to the Region.
            3. Strengthen                Enhance the Region’s ability to       The objective is not:
            Information Sharing and      facilitate the distribution of        • Specific
            Collaboration Capabilities   relevant, actionable, timely          • Measurable
                                         information and/or intelligence       • Time-limited
                                         that is updated frequently to the
                                         consumers who need it.
            6. Strengthen Medical        Establish a transparent system to     The objective is not:
            Surge and Mass               protect the health of the             • Specific
            Prophylaxis Capabilities     population through the use of         • Measurable
                                         isolation and/or quarantine           • Time-limited
                                         measures in order to contain the
                                         spread of disease.
           Source: Boston UASI, Homeland Security Strategy.

           According to FEMA officials, although the agency had approved the
           Commonwealth of Massachusetts’ strategies, its approval meant only that it had
           received the strategies. FEMA did not review the strategies to ensure that the
           objectives were measurable or that there were timeframes for completing them.
           EOPSS officials agreed that the objectives did not have completion dates.
           However, they believed that each objective contained implementation steps, and
           completion of these steps would allow them to measure their progress in
           completing the goals and objectives in the strategy.

           Without goals and objectives that meet FEMA criteria, the Commonwealth of
           Massachusetts could not effectively evaluate and monitor progress made on its
           strategies in regard to its preparedness, prevention, response, and recovery
           capabilities.

           Recommendation

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:




www.oig.dhs.gov                                     6                                           OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #1:

           Assist the Director of EOPSS and the Urban Area Working Group in updating their
           Homeland Security Strategies, ensuring that the strategies include measurable
           target levels of performance, as well as objectives that are specific, measurable,
           achievable, results-oriented, and time-limited; and an appropriate evaluation
           plan to measure progress.

           Management Comments and OIG Analysis

           FEMA concurred with recommendation 1, and will require EOPSS and the Boston
           UASI to update their respective Homeland Security Strategies, ensuring that the
           strategies include measurable target levels of performance, as well as objectives
           that are specific, measurable, achievable, results-oriented, and time-limited; and
           an appropriate evaluation plan. EOPSS and the Boston UASI will submit the
           revised Homeland Security Strategies to FEMA for review no later than 6 months
           after issuance of the OIG final report.

           EOPSS informed us that it had to wait until FEMA completed the requirements
           for the Threat and Hazard Identification and Risk Assessment (THIRA) process.
           EOPSS commenced a comprehensive statewide risk, vulnerability, and
           capabilities assessment process that will inform both its THIRA and state
           strategy. EOPSS expects to present its updated state strategy to FEMA in the
           spring of 2013.

           The actions proposed by FEMA and EOPSS meet the intent of the
           recommendation. Recommendation 1 is considered resolved and open, pending
           the completion, submission, and review of the strategy revisions.

           Performance Measures

           EOPSS and the Boston UASI did not have sufficient performance measures to use
           in determining their ability to deter, prevent, respond to, and recover from acts
           of terrorism and natural and manmade disasters. Furthermore, FEMA has not
           provided clear guidance to the Commonwealth on developing performance
           measures.

           According to Title 44 of the Code of Federal Regulations (CFR) 13.40(a),
           MonitoringfandfReportingfProgramfPerformance, grantees must monitor grant-
           and subgrant-supported activities to ensure compliance with applicable Federal
           requirements and to ensure that performance goals are being achieved.

www.oig.dhs.gov                                7                                       OIG-13-44
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Although it did not establish performance measures, EOPSS made efforts to
           monitor progress on funded projects and prepared a report on the use of HSGP
           funds. For example, EOPSS required subgrantees to submit quarterly
           programmatic and financial progress reports, which staff reviewed to monitor
           subgrantee progress. EOPSS also prepared a TrendfandfProcessfReport dated
           October 2008, which included an overview of HSGP funding that the
           Commonwealth received since 2003. The report described how the Homeland
           Security Planning Regions used the funds to improve the Commonwealth’s
           communications infrastructure, allocated emergency response resources,
           purchased search and rescue equipment, and shared resources.

           Commonwealth and Boston UASI officials also conducted exercises and prepared
           after-action reports, which, according to these officials, were used to identify
           areas in need of future HSGP funds. For example, the Boston UASI conducted an
           exercise called Urban Shield, which tested integrated systems to prevent,
           protect, respond to, and recover in the greater Boston high-threat, high-density
           urban area. The multilayered training exercise was designed to enhance the
           skills and abilities of first responders, as well as those responsible for
           coordinating and managing large-scale events. The UASI used the after-action
           report from this exercise to prioritize future expenditures so that the urban area
           could be better prepared for critical events.

           FEMA has not provided clear guidance to States on developing performance
           measures. FEMA has provided States with emergency preparedness priorities
           and target capability needs, which the States use as a basis for their State Self­
           Assessments.1 Effective performance measures would assist in the
           Commonwealth’s State Self-Assessments by focusing on and measuring those
           preparedness priorities important to the Commonwealth.

           The need of procedures for assessing performance prevented the
           Commonwealth from evaluating its accomplishments to ensure that it achieved
           its goals and objectives, and that it aligned its funding requests with real threats
           and vulnerabilities. Furthermore, without good performance measurements
           from the Commonwealth, DHS may not have been able to determine the
           effectiveness of the HSGP.



   1
    Congress requires that States receiving FEMA-administered Federal Preparedness assistance annually
   submit a State Preparedness Report that includes an assessment of State compliance with national
   preparedness systems, current capability levels, and resources needed to meet National Preparedness
   Priorities.

www.oig.dhs.gov                                      8                                             OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:

           Recommendation #2:

           Require EOPSS to develop interim performance measures until the Federal
           Emergency Management Agency issues guidance for all Homeland Security Grant
           Program grant recipients.

           Management Comments and OIG Analysis

           FEMA concurred with recommendation 2 and is currently developing processes
           to measure core capabilities in accordance with the National Preparedness Goal
           pursuant to Presidential Policy Directive 8. The Commonwealth was to complete
           the THIRA and submit it to FEMA by January 31, 2013. The THIRA will be used to
           create a baseline and targets for FY 2013 and beyond. FEMA has also redesigned
           the State Preparedness Report (SPR) to help states demonstrate and track
           preparedness improvement over time. The SPR is a standardized capability
           assessment that compares the THIRA targets to current capability, and
           documents any gaps that exist. Within 90 days, FEMA will verify submission of
           both the SPR and THIRA.

           EOPSS agreed that the goals and objectives in the 2007 State Homeland Security
           Strategy should be time limited; however, the strategy does detail 33 specific
           implementation steps related to each of the 18 objectives under 3 broader goals.
           According to EOPSS, in May 2010 it completed an internal progress report that
           included the degree of progress toward accomplishing each implementation step.

           The actions proposed by FEMA meet the intent of the recommendation.
           Recommendation 2 is considered resolved and open, pending the completion,
           and submission of the THIRA and SPR.

           Obligation of Grant Funds

           For SHSP funds awarded to the Commonwealth during FYs 2008 through 2011,
           EOPSS did not obligate funds within 45 days, as required by FEMA program
           guidance, in 24 of 24 instances. EOPSS did not make funds available to
           subgrantees to expend until as many as 472 days after the date that EOPSS was
           required to obligate the funds.

www.oig.dhs.gov                               9                                      OIG-13-44
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           According tofFEMAfHomelandfSecurityfGrantfProgramfGuidance, State
           Administrative Agencies must obligate and make available to local government
           units at least 80 percent of SHSP and UASI grant funds within 45 days of FEMA’s
           award date. The obligation must include the following requirements:

           •	 There must be some action to establish a firm commitment on the part of
              the awarding entity.

           •	 The action must be unconditional on the part of the awarding entity (i.e., no
              contingencies for availability of funds, and all special conditions prohibiting
              obligation, expenditure, and drawdown must be removed).

           •	 There must be documentary evidence of the commitment.

           •	 The award terms must be communicated to the official grantee.

           During FYs 2008 through 2011, EOPSS sent letters to subgrantees notifying them
           of the amount of HSGP funds they were eligible to receive. Commonwealth
           officials considered the date of the notification letter to be the funding
           obligation date. However, the notification letters did not constitute obligation of
           funds because they contained conditions that had to be met before the funds
           would be made available to the subgrantee. For example, the letters required
           subgrantees to submit budgets and expenditure plans for EOPSS approval. Upon
           approval of the budgets and plans, EOPSS would enter into a contract with a
           fiduciary agent representing the subgrantee.2 According to the letter, subgrantees
           could not undertake grant-funded activity prior to final execution of the contract
           with the fiduciary agent, and costs incurred outside the official contract period
           would not be reimbursed. Consequently, funds were not obligated until EOPSS
           executed a contract with the fiduciary agent.

           We compared the date that FEMA awarded the funds to EOPSS with the date of
           the final contract execution, when funds were available to subgrantees for
           expenditure. From FYs 2008 through 2011, EOPSS granted 24 awards to the four
           Homeland Security Planning Regions and the Boston UASI and their fiduciary
           agent; none of the awards were obligated and available to the subgrantees
           within the required 45 days. The awards ranged from 44 to 472 days late.

   2
    The Metropolitan Area Planning Council was selected as the fiduciary agent for four of five Homeland
   Security Planning Regions (did not include the Boston UASI Region). The fiduciary agent acts as the fiscal
   “pass-through” to the regions for SHSP grant funds and ensures compliance with the financial and
   administrative requirements of the grants.

www.oig.dhs.gov                                        10                                        	      OIG-13-44
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Table 3 shows the longest delays for each fiscal year. Appendix E contains details
           of all 24 awards granted during FYs 2008 through 2011.

           Table 3. Timeliness of Subgrantee Awards, FYs 2008–2011
                                           Date Funds Should
                                                                   Name of
                             Date of          Be Awarded                          Number of
             Fiscal Year                                       Subgrantees With
                           FEMA Award        (45 Days After                       Days Late
                                                                 Longest Delay
                                             FEMA Award)
                                                               NE, SE, C, and W
                  2008       08/29/08           10/13/08                            422
                                                                   Regions
                  2009       08/21/09           10/05/09          NE Region         442
                  2010       09/13/10           10/28/10         UASI Region        472
                                                               NE, SE, C, and W
                  2011       09/01/11           10/16/11                            151
                                                                   Regions
            Source: DHS OIG analysis of EOPSS data.

           EOPSS delays in obligating HSGP funds to subgrantees may be attributable to the
           subgrantees having to submit plans and budgets before an award was obligated.
           SHSP and UASI grants have a 36-month (3-year) period of performance. As a
           result of delays in obligating funds and to prevent possible deobligation of funds
           at the end of the original grant period, EOPSS requested two extensions to the
           FY 2008 period and one extension to the FY 2009 period. The delay in making
           HSGP funds available for expenditure may have reduced the Commonwealth’s
           ability to prevent, protect against, respond to, and recover from acts of
           terrorism, major disasters, and other emergencies.

           Recommendation

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:

           Recommendation #3:

           Require EOPSS to assess and streamline the current processes and procedures
           for obligating funds to subgrantees so that funds are obligated within a
           reasonable period.

           Management Comments and OIG Analysis

           FEMA concurred with recommendation 3 and will require EOPSS to assess and
           streamline processes and procedures for obligating funds to subgrantees. EOPSS

www.oig.dhs.gov                                       11                                  OIG-13-44
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           shall report to FEMA the results of this assessment and potential steps to be
           taken to expedite the obligation of funds to the subgrantees no later than 90
           days after the issuance of the OIG final report.

           EOPSS informed us that they made improvements in this area since they
           contracted with a fiduciary agent to receive the local share/regional funds on
           behalf of the regional homeland security advisory councils. Improvements were
           noted in FY 2011 and FY 2012 where contracts were signed within 151 days and
           74 business days, respectively, after EOPSS received its award from the Federal
           Government.

           The actions proposed by FEMA meet the intent of the recommendation.
           Recommendation 3 is considered resolved and open pending completion of the
           corrective action.

           Management and Administration Expenses

           For its SHSP and UASI awards, the Commonwealth exceeded the limitations on
           M&A expenses in FYs 2008 through 2011. According to the FEMAfHomelandf
           SecurityfGrantfProgramfGuidancefandfApplicationfKitffor FYs 2008 and 2009,
           States could retain a maximum of 3 percent of funds to be used solely for M&A
           expenses. FY 2010 HSGP guidance limited M&A expenses to 5 percent of the
           funds awarded. States could pass a portion of the State’s M&A allocation on to
           local subgrantees to support local M&A, but the total allocation amount could
           not exceed 3 percent for FYs 2008 and 2009 and 5 percent for FY 2010. Federal
           statutes also limit the amount of grant funding that may be used for M&A.3

           FEMA changed its grant guidance in FY 2011, allowing up to 9 percent of HSGP
           funds to be retained for M&A expenditures associated with HSGP awards.
           According to FEMA program officials, FEMA’s guidance meant that (1) the
           Commonwealth could expend up to 5 percent of the total award on M&A
           expenditures, and (2) since 80 percent of HSGP funds must be passed through to
           subgrantees, the subgrantees could expend up to 4 percent of the total award
           on M&A expenditures (5 percent of the 80 percent passed through). However,
           we believe that FEMA program officials incorrectly interpreted the limit on M&A
           spending, and, as a result, FEMA’s FY 2011 guidance may violate Public Law 111­
   3
    Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfAct off2007,fAugust 3, 2007,
   stipulates that M&A expenses may not exceed 3 percent of the grant for FYs 2008 and 2009. According to
   Public Law 111-83, DepartmentfoffHomelandfSecurityfAppropriationsfAct,f2010, October 28, 2009, a
   grantee may use not more than 5 percent of the amount of a grant for expenses directly related to
   administration of the grant.

www.oig.dhs.gov                                     12                                             OIG-13-44
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           83, which stipulates that a grantee may not use more than 5 percent of an award
           to administer the grant.

           Using this same method that was ultimately included in the FY 2011 guidance,
           and with FEMA approval, the Commonwealth and its subgrantees retained M&A
           funds totaling 5.4 percent of awards in FYs 2008 and 2009, exceeding the
           3 percent limit, and 9 percent of awards in FYs 2010 and FY 2011, exceeding the
           5 percent limit. For example, in FY 2008, the total SHSP and UASI awards
           amounted to approximately $31 million. The Commonwealth retained $929,805
           (3 percent) of the total award for M&A. In addition, subgrantees in the five
           Homeland Security Planning Regions received $24.8 million (80 percent) of the
           total award and retained $743,844 (3 percent of the subawards) for M&A.
           Therefore, a total of 5.4 percent of the total FY 2008 award was retained for
           M&A—an amount that exceeded the statutory limit for M&A expenses by
           $743,844. We estimate that the Commonwealth and subgrantees will exceed
           the statutory limit for M&A for FYs 2008–2011 by $3.9 million, as shown in
           Table 4.

           Table 4. Unallowable M&A, FYs 2008–2011
                                                Total M&A
                         Total SHSP and        Retained for       Total M&A
              Fiscal                                                            Unallowable
                          UASI Award          Commonwealth        Allowed per
              Year                                                                 M&A
                            Amounts               and Its            Statute
                                               Subgrantees
              2008*        $30,993,500          $1,673,649         $929,805      $743,844
              2009*        $29,986,100           $1,619,249        $899,583      $719,666
              2010**       $34,509,695           $3,105,873       $1,725,485    $1,380,388
              2011**       $26,721,838           $2,404,965       $1,336,091    $1,068,874
              Total       $122,211,133           $8,803,736       $4,890,964    $3,912,772
              *M&A limit for FYs 2008 and 2009 was 3 percent.

             ** M&A limit for FYs 2010 and 2011 was 5 percent.

             Source: DHS OIG analysis of EOPSS data.


           Recommendations

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:




www.oig.dhs.gov                                     13                                   OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #4:

           Require EOPSS to return funds that exceeded the statutory limits for
           management and administrative expenses.

           Recommendation #5:

           Correct the HomelandfSecurityfGrantfProgramfGuidance to comply with
           statutory limitations on management and administration expenditures.

           Management Comments and OIG Analysis

           FEMA disagrees with recommendations 4 and 5. FEMA contends that the Public
           Law authorizes recipients of SHSP and UASI programs to spend a percentage of
           their grant on administrative expenses. The term “recipient of a grant” appears
           in the law and sets forth the permitted uses for UASI and SHSP funds. The 13
           enumerated uses for which “recipients” may expend funds include an array of
           activities to be performed at both the grantee and subgrantee levels.
           Accordingly, FEMA has interpreted the law to include the State, urban areas, and
           other local recipients of SHSP and UASI funding to be “recipients of a grant” and
           each recipient allowed a percentage of funds for administrative expenses.

           According to FEMA, the amounts spent on administration by the Commonwealth
           and local grant recipients on administration between FYs 2008 and 2011 were
           specifically authorized by statute and are allowable expenses under the SHSP
           and UASI programs. Because the amount spent on administration did not
           exceed the amounts authorized by statute, there is no need to request that
           EOPSS return any funds.

           Regarding recommendation 5, FEMA program officials contend that the guidance
           is not in conflict with statutory provisions concerning the amounts that grant
           recipients may spend on administration, and is not necessary to correct or
           otherwise amend the guidance.

           We disagree with the response to both recommendations 4 and 5. We believe
           that FEMA program officials incorrectly interpreted the limit on M&A spending,
           and that FEMA’s FY 2011 guidance may violate Public Law 111-83, which
           stipulates that a grantee (Commonwealth of Massachusetts) may not use more
           than 5 percent of an award to administer the grant. Recommendations 4 and 5
           are considered unresolved and open pending resolution of the different
           interpretations involving administrative expenses.

www.oig.dhs.gov                               14                                      OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Procurement Practices, Property Records, and Expenditure Review


           We identified instances in which subgrantees did not fully comply with
           procurement, property record, and expenditure documentation requirements.
           The Commonwealth might have identified and resolved these issues through
           better monitoring of subgrantees.

           Procurement Practices

           In most instances, subgrantees complied with State procurement requirements
           for goods and services purchased with HSGP funds. However, in our review of
           118 procurements, we identified 8 instances in which subgrantees and the
           Commonwealth either did not comply with State requirements or did not follow
           State recommendations. In addition, subgrantees did not comply with Federal
           procurement requirements in awarding four training contracts.

           In one instance, a subgrantee did not comply with State procurement
           requirements by renewing a contract that should have been rebid. A $98,655
           contract was awarded to a technical expert to compile studies, make an
           assessment, and develop recommendations for interoperable communications.
           Subsequently, the contract was increased to $166,000 for design and
           development work at specific locations. According to the State Procurementf
           Manual (ThefChapterf30BfManualf–fLegalfRequirements,fRecommendedf
           Practices,fandfSourcesfoffAdvicefforfProcuringfSupplies,fServices,fandfRealf
           Property, dated May 2011), a contract cannot be amended if the price is more
           than 25 percent of the original contract. In response to the fiduciary agent
           request, the Massachusetts OIG deemed the procurement a renewal that did not
           violate the 25 percent requirement. However, according to the manual,
           contracts cannot be renewed for supplies or services not included in the original
           contract. The original contract did not specify design and development work,
           and the amended contract notes that the contract was amended with a change
           in scope of work.

           In another instance, a State agency purchased 16 all-terrain vehicles for
           $100,316, and awarded a contract to a company with a prior contract, rather
           than conducting a competitive procurement. The agency contended that only
           this vendor could provide what was needed; it also claimed it had researched the
           unit price and deemed it competitive. According to the State Procurement
           Manual, however, sole source contracts are not allowable for this type of item.



www.oig.dhs.gov                               15                                      OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           We identified six contracts under which items were purchased from a Statewide
           contract that had more than one vendor. The State Procurement Manual
           recommends soliciting quotes from each vendor on the Statewide contract and
           awarding the contract to the vendor offering the needed quality of supplies or
           services at the lowest price. We requested evidence that quotes were solicited
           from other vendors, but this information was not provided.

           Subgrantees did not comply with Federal procurement requirements in
           procuring professional services to conduct four training courses, ranging in cost
           from $30,000 to $147,000. Although the State Procurement Manualfexempts
           these types of services from its requirements, subgrantees must comply with
           Federal requirements in the CFR. According to 44 CFR § 13.36(b)(1),
           Procurement, subgrantees must use their own procurement procedures, which
           reflect applicable State and local laws and regulations, provided that the
           procurements conform to applicable Federal law and regulations. Federal
           procurement regulations direct subgrantees to use full and open competition to
           acquire equipment and services except in certain circumstances, such as when
           an item is available only from one source. When noncompetitive procurements
           are used, the subgrantee must conduct cost analyses to ensure that prices
           obtained are fair and reasonable. The subgrantees did not provide
           documentation to justify noncompetitive procurements or cost analyses to
           support the reasonability of the costs.

           We attribute the cases of noncompliance to the fiduciary agent’s unfamiliarity
           with the State Procurement Manual concerning contract renewals, as well as the
           differences between State and Federal procurement requirements regarding
           competition for training contracts. Also, EOPSS’ protocol for conducting site
           visits of subgrantees was limited to ensuring compliance with the State
           Procurement Manual, with no mention of Federal procurement requirements.
           Without full and open competition or a cost analysis in cases of a noncompetitive
           procurement, the grantee cannot ensure that the cost of the equipment or
           services is reasonable. Subgrantees must comply with both State and Federal
           procurement requirements to ensure that the grant funds are used to provide
           equipment or services at reasonable prices.

           Property Record Requirements

           The grantee and subgrantee systems for managing property did not ensure full
           compliance with Federal and State requirements. Improvements are needed in
           applying decals to the equipment, maintaining property records, and developing
           an adequate control system to ensure that safeguards are in place to prevent

www.oig.dhs.gov                                16                                      OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           loss, damage, or theft of the property. In two of three regions visited, property
           records did not have adequate descriptions and unique identifying numbers.
           Additionally, there was little or no evidence of the State performing equipment
           checks to verify that the items were adequately recorded in the inventory records.

           44 CFR 13.32(d), ManagementfRequirements, establishes procedures and
           minimum requirements for managing equipment (including replacement
           equipment). Property records must be maintained and must include the
           property’s description, identification number, source of the property, the title
           holder, acquisition date, cost and percentage of Federal funds used in the cost,
           location, use and condition, and ultimate disposition.

           Additionally, EOPSS InventoryfGuidance dated May 2010 requires all subgrantees
           to maintain a computer-based inventory of all equipment purchased with HSGP
           funds. Equipment is defined as tangible items with a unit cost of $500 or greater
           and a shelf life of at least 1 year. All such equipment must, when practicable, be
           tagged with the following text: “Purchased with funds provided by the U.S.
           Department of Homeland Security.”

           According to the fiduciary agent’s program manager, property records are
           populated at the time a purchase order is executed. The fiduciary agent later
           conducts an annual inventory, which includes tagging the items with Homeland
           Security decals and adjusting the locations in the records if the items have moved.

           We identified the following deficiencies in equipment management:

           •	 The fiduciary agent waited to put the decals on items until the time of the
              annual inventory. Because it waited, the fiduciary agent may have been
              unable to access the equipment. For example, cameras already mounted on
              buildings were not tagged.

           •	 Although numerous items were included on one invoice, the “Item
              descriptions” listed in the property records were generically titled, such as
              “technical rescue equipment” or “hardware and software.” The individual
              items included on the purchase order were hydraulic jacks, hoists, and
              communication equipment, which are susceptible to theft and therefore
              should be properly recorded and tracked.

           •	 The fiduciary agent did not include serial numbers from equipment in its
              records. In addition, 31 percent of the items listed in the Northeast Region’s
              inventory records, and 78 percent of the items listed in the Southeast Region’s
www.oig.dhs.gov                                17                                  	     OIG-13-44
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  inventory records did not have an inventory item number. Without an
                  identifying number, equipment could not be safeguarded from loss, damage,
                  or theft.

           •	 The Commonwealth performed limited verification of inventory records.
              According to the GrantsfManagementfManual, Commonwealth personnel
              are required to perform equipment spot checks during site visits. However,
              the Commonwealth documented only four checks in FY 2012. All four were
              performed on the day that the program coordinator accompanied the
              auditors in their review of equipment items.

           The examples cited above occurred because of an oversight on the part of the
           fiduciary agent and lack of verification by the grantee. As a result, the
           Commonwealth could not ensure that assets procured with grant funds were
           safeguarded to prevent loss, damage, or theft and used as intended; or that it
           would know the location to have ready access to vital emergency preparedness
           equipment.

           Construction Item

           The Boston UASI used $157,000 in FY 2009 UASI funds to construct a Trench
           Rescue Simulator, which is a permanent trench used to conduct search and
           rescue training. FEMA approved the expenditure and advised EOPSS that a
           construction waiver was unnecessary because the expenditure was for the
           installation of a training prop. FEMA believed that the Trench Rescue Simulator
           was allowable because it was a cost related to administering the training,
           planning, scheduling, facilities, materials and supplies, reproduction of materials,
           and equipment. However, FEMA 2009 HSGP guidance prohibits using HSGP
           funds for construction and renovation, except for necessary components of a
           security system at critical infrastructure facilities.

           Supporting Documentation

           In three instances, the UASI and EOPSS needed additional review to ensure that
           costs were allowable, allocable, and reasonable:

           •	 Monthly supporting documentation for a training contractor included 47
              Weekly Time and Attendance Records for 10 employees; one employee
              initialed 32 of 47 employees’ timesheets as employee, supervisor, or both.



www.oig.dhs.gov                                 18                                  	    OIG-13-44
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           •	 The UASI awarded a contract for intelligence analyst support that contained
              neither a scope of work nor the costs for these services. Accordingly, EOPSS
              and the UASI were unable to verify that the hourly rates for the job positions
              contained in the invoices were consistent with the terms of the contract.
              The scope of work and personnel costs were added to the contract about a
              year after the contract was signed.

           •	 EOPSS and the UASI paid considerable overtime for employees to attend
              training and exercises. Current procedures for reimbursing overtime/backfill
              require a training course certificate, copy of a sign-in roster, or a letter from
              the training agency. Without verifying the employees’ timesheets, EOPSS
              and the UASI were unable to verify that the employees worked sufficient
              hours to qualify for overtime. When requesting reimbursement for
              overtime, EOPSS and the UASI did not conduct periodic sampling of
              employee timesheets to verify that employees were eligible for overtime.

           Recommendations

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:

           Recommendation #6:

           Require EOPSS to notify all entities awarded Homeland Security Grant Program
           funds of the requirement to use and follow Federal, State, and local procurement
           policies and standards as required for purchasing or acquiring equipment and
           services.

           Recommendation #7:

           Encourage EOPSS to complete a review of all grant-funded purchases using
           FYs 2008, 2009, 2010, and 2011 State Homeland Security Program and Urban
           Areas Security Initiative grant funds that were exempt from the requirements of
           the State Procurement Manual. These reviews should ensure that the
           procurements complied with the Federal requirements in 44 CFR § 13.36.

           Recommendation #8:

           Require EOPSS to revise and update the site visit protocol to ensure that it
           includes a review of subgrantee compliance with Federal procurement
           requirements.

www.oig.dhs.gov                                 19                                  	     OIG-13-44
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



           Recommendation #9:

           Require EOPSS to perform more equipment spot checks to ensure that
           subgrantees develop and sustain a property management system that meets
           Federal requirements.

           Recommendation #10:

           Recover the unallowable costs of $157,000 for construction of the Trench Rescue
           Simulator.

           Recommendation #11:

           Require EOPSS to obtain adequate supporting documentation before
           reimbursing subrecipients.

           Management Comments and OIG Analysis

           FEMA concurred with recommendations 6 through 9 and 11, and disagreed with
           recommendation 10. EOPSS disagreed with the specifics included in several of
           the examples provided, but generally agreed with recommendations 6 through 9
           and 11. EOPSS disagreed with recommendation 10 and provided written
           approval from FEMA’s Grant Programs Directorate.

           Regarding recommendation 6, FEMA shall require EOPSS to inform all HSGP
           awardees to use and follow appropriate procurement policies as required by
           44 CFR, Section 13.36. EOPSS shall report its plan to notify HSGP awardees of
           the procurement requirements to FEMA no later than 90 days after the issuance
           of the OIG final report.

           Regarding recommendation 7, FEMA shall require EOPSS to conduct a review of
           all grant-funded purchases using FYs 2008, 2009, 2010, and 2011 SHSP and UASI
           grant funds that were exempt from the requirements of the State Procurement
           Manual. These reviews should ensure that the procurements complied with the
           Federal requirements in 44 CFR, Section 13.36. EOPSS shall report the results of
           this review to FEMA no later than 90 days after the issuance of the final OIG
           report.

           Regarding recommendation 8, FEMA shall require EOPSS to revise and update
           the site visit protocol to include a review of subgrantee compliance with the

www.oig.dhs.gov                               20                                      OIG-13-44
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           procurement requirements of 44 CFR, Section 13.36. EOPSS shall report to
           FEMA once it has revised and updated the site visit protocol no later than 90
           days after the issuance of the OIG final report.

           Regarding recommendation 9, FEMA shall require EOPSS to perform more
           equipment spot checks during monitoring site visits. EOPSS shall report to FEMA
           how it will verify its personnel conduct consistent spot checks no later than 90
           days after the final issuance of the OIG final report.

           Regarding recommendation 11, FEMA shall require EOPSS to obtain adequate
           documentation before reimbursing subgrantees. EOPSS shall ensure that all
           subgrantees comply with 44 CFR, Section 13.20 entitled StandardsfforfFinancialf
           ManagementfSystems, subsection (b) (6) entitled SourcefDocumentation. EOPSS
           shall report to FEMA how it will obtain adequate documentation before
           reimbursement no later than 90 days after the issuance of the OIG final report.

           The actions proposed by FEMA for recommendations 6 through 9 and 11 meet
           the intent of the recommendation. Accordingly, these recommendations are
           considered resolved and open pending completion of the corrective actions.

           Regarding recommendation 10, FEMA did not concur and said that it granted
           permission to EOPSS to install a trench rescue simulator because it considered
           the project to be the installation of a training prop and not construction. We
           disagree with this response. FEMA’s 2009 HSGP guidance prohibits using HSGP
           funds for construction and renovation, except for necessary components of a
           security system at critical infrastructure facilities. In addition, Public Law 110-53
           provides for exceptions for certain construction projects; however, the
           exceptions must be specifically approved by the FEMA Administrator.
           Recommendation 10 is considered unresolved and open pending resolution of
           the different interpretations regarding construction projects.




www.oig.dhs.gov                                 21                                         OIG-13-44
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether the Commonwealth
   of Massachusetts spent SHSP and UASI grant funds (1) effectively and efficiently, and
   (2) in compliance with applicable Federal laws and regulations. We also addressed the
   extent to which funds enhanced the State’s ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters.

   The HSGP and its five interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, only SHSP and UASI funding,
   equipment, and supported programs were reviewed for compliance. The scope of the
   audit included the SHSP and UASI grant awards for FYs 2008, 2009, 2010, and 2011 (see
   table 5). We reviewed the plans developed by the Commonwealth to improve
   preparedness and all-hazards response, the goals set within those plans, the
   measurement of progress toward the goals, and the assessments of performance
   improvement that result from this activity.

      Table 5. Commonwealth of Massachusetts Homeland Security Grant Program Awards
                              State Homeland        Urban Areas
       Funded Activity                                                      Total
                              Security Program    Security Initiative
           FY 2008              $17,210,000         $13,783,500          $30,993,500
           FY 2009              $15,421,500         $14,564,600          $29,986,100
           FY 2010              $15,575,715         $18,933,980          $34,509,695
           FY 2011                $7,787,858        $18,933,980          $26,721,838
         Grand Total            $55,995,073         $66,216,060         $122,211,133
   Source: DHS OIG analysis of EOPSS data.

   We relied on FEMA’s computer-processed data that contained information on the grant
   funds awarded during FYs 2008 through 2011. We conducted limited tests on these
   data against source documentation to ensure that the data were sufficiently reliable to
   be used in meeting our audit objective.

www.oig.dhs.gov                                  22                                     OIG-13-44
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



   We visited the designated State Administrative Agency, EOPSS, and the following 10
   subgrantees that had been awarded funding in FYs 2008, 2009, 2010, and 2011:

   State Agencies

   •   Department of Fire Services
   •   Executive Office of Environmental Affairs
   •   Massachusetts Emergency Management Services
   •   Massachusetts State Police

   Regions

   •   Metro Boston UASI
   •   Northeast
   •   Southeast

   Other Recipients

   •   American Red Cross
   •   Massachusetts Convention Center
   •   Metropolitan Area Planning Council

   At each location, we interviewed responsible officials, reviewed documentation
   supporting State and subgrantee management of grant funds, and inspected selected
   equipment procured with grant funds. We also interviewed officials awarded UASI
   grant funds to determine whether funds were expended according to grant
   requirements and priorities established by the Commonwealth.

   We conducted this performance audit between May and October 2012, pursuant to the
   InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              23                                     OIG-13-44
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                               u.s. DCparlmClIl ofUomelDlId So< urily
                                                                                               Wa. hinglrln. DC 2OH2




                                                          JAN 29 lOIJ

                  MEMORANDUM FOR:                 Anne L. Richards
                                                  Assistant Inspector General for Audits
                                                  Office of Inspector General

                  FROM:                           Da vid J. Kaufman             VI¥r V)
                                                  AssO(; iate Administrator fo r ( V'
                                                  Po licy, Program Analysis and International Affairs

                  SUBJECT:                        Response to OIG DRAFT REPORT: '',Ad(lssacllllsefls' Management oj
                                                  Homeland Security Program Grants Awarded During Fiscal Years
                                                  2008 Through 20 I J "
                                                  OIG Project No. l2- 12 1-AUD-FEMA


                  The Federal Emergency Management Agency (FEMA) appreciates the opportunity to review and
                  respond to OIG Draft Report: "Massac/JlIsells' Mmwgemel/{ of f lome/and Security Program Grants
                  A wm'dad During Fisc(li Yatlrs 2008 Through 10//" - For Official Use On ly - OIG Project No. 12-
                  12l -AUD-FE~1A.


                  The findings and recommendations in this report identi fy measures that the Federa l Emergency
                  Management Agency Grant Programs Di rectorate (GPO) will be used to enhance the effect iveness
                  and efficiency of how wc execute and mcasure our program s. We rccognizc thc nccd to continue to
                  improve the process, including a.ddressing the recommendations raised in this report. The draft report
                  contained II recommendations with wh ich FEMA concurs with 8. The followi ng arc our responses
                  to the recommendations for corrective action:

                  Recommendation I : Assist the Director of Execut ive Office of Public Safety and Security (EO PSS)
                  and the Urban Area Working Group in updating their Homela nd Security Strategies, ensu ring that the
                  strategies include measurable target levels of performance , as wcll as objectives that are specific ,
                  measurable, achievable, results-oriented, and time-limited, and appropriate evaluation

                  FEMA Response: Concur
                  The Assistant Admin istrator o f the Grant Programs Directorate shall require EOPSS and the Boston
                  Urban Area to update their respective Ilomeland Security Strategies, ensuring that the strategies
                  inc lude measurab le target leve ls of perform ance, as well as objectives that are specific, measurable,
                  achievable, results-oriented, and time-limited, and an appropriate evaluation. EOPSS and the Boston
                  Urban Area sha ll submit the revised Home land Security Strategies to GPD for rev iew no lmer than
                  six momhs after issuance of the DIG fina l report . FEMA requests this recommendation be reso lved
                  and open pending the completion, submission and rev iew of the strategy revisions.


                                                                                              \\'\\'w.rcma.£ov




www.oig.dhs.gov                                                      24                                                                 OIG-13-44
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              OIG Recommendation 2: Require EOPSS to develop interim performance measures until the
              Federal Emergency Management Agency issues guidance for all Homeland Security Grant Program
              (HSGP) grant recipients.

              FEMA Response: Concur
              The FEMA National Preparedness Directorate (NPD) is currently developing processes to measure
              core capabilities in accordance with the National Preparedness Goal pursuant to PPD-S. The State
              will complete the Threat and Hazard Identification and Risk Assessment (THIRA) and submit it to
              FBMA by January 31. 2013. The THIRA will be used to create a baseline and targets for Fiscal Year
              2013 and beyond. FEMA has also redesigned the State Preparedness Report (SPR) to help states
              demonstrate and track preparedness improvement over time. The SPR is a standardized capability
              assessment that compares the THIRA targets to current capability. and documents any saps that
              exisL Within 90 days FEMA will verify submission Oftxlth the SPR and THIRA. FEMA requests
              this recommendation be resolved and open pending the completion and submission of the THIRA
              and SPR.

              OIG Recommendation 3: Require BOPSS to assess and streamline the current processes and
              procedures for obligating funds to subgrantees so that funds are obligated within a reasonable period.

              FEMA Response: Concur
              The Assistant Administrator of the Grant Programs Directorate shall require EOPSS to assess and
              streamline (where possible) processes and procedures for obligating funds to subgrantees. EOPSS
              shall report to GPD the results of this assessment and potential steps to be taken to expedite the
              obligation of funds to the subgrantees no later than 90 days after the issuance of the OIG final report.
              FEMA requests this recommendation be resolved and open pending the completion of the corrective
              action.

              OIG Recommendation 4: Require EOPSS to return funds that exceeded the statutory limits for
              management and administrative expenses.

              FEMA Response: Non Concur
              FBMA disagree with this recommendation. Section 2008 of the of the Implementing
              Recommendations o/the 9/11 Commission Act 0/2007 (P.L. 110-53) as amended by the Personnel
              Reimbursementlor Imelligence Cooperation and Enhancement of Homeland Security Act of2008
              (the PRICE of Homeland Security Act) (P.L. 110412) authorizes "recipient[s1 of a grant" under the
              VASI and SHSP programs to spend up to three percent of their grant on administrative expenses
              directly related to the grant. (6 U.S.C. § 609(a)(II». The tenn "recipient of a grant" appea" in the
              introductory language at 6 u.s ,C. § 609(a), the section which sets forth the pennitted uses for UAS]
              and SHSP funds. The thirteen enumerated uses for which "recipientsn may expend funds include an
              array of activities to be perfonned at both the grantee and subgrantee levels. It would be illogical to
              assume that "recipient" should be construed more narrowly in 6 U.S.C. § 609(a)(11) than in 6 U.S.C.
              § 609(a)(I) through 609(a)(l0) and in 609(a)(12) and (609)(a)(13). Therefme, as used in 6 U.S.C. §
              609(a)(11). the State. high-risk urban areas, and other local recipients ofUASI and SHSP funding.
              are all considered to be an individual "recipient of a grant."




                                                                 2




www.oig.dhs.gov                                                 25                                                       OIG-13-44
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




              For FY 2010, FY 2011, and FY 2012, Congress increased the amount available for administrative
              expenses under the VASI and SHSP programs from three percent to five percent.1l1 As a result, for
              FY 2008 and FY 2009, each "recipient ofa grant" was entitled to spend up to three percent of the
              grant funds they received on administrative expenses. For FY 2010 - FY 2012, each "recipient ofa
              grant" was entitled to spend up to five percent of the grant funds they received on administrative
              expenses.

              For FY 2008 and FY 2009, the Commonwealth of Massachusetts retained three percent of the UASI
              and SHSP funding FEMA distributed for administrative costs related to those programs. Each of the
              local high-risk urban areas and other local grant recipients also retained three percent of their grants
              for administration. Likewise, for FY 20 I 0 and FY 20 II, the Commonwealth of Massachusetts
              retained five percent of the UAS) and SHSP funds FEMA distributed for administrative costs directly
              related to those proh-TfBms. In FY 201 0 and FY 2011, each of the local high-risk urban areas and
              other local grant recipients also retained five percent of their grants for administrative expenses.

              Because the Commonwealth of Massachusetts, as well as all of the local high-risk urban areas and
              other local grant recipients, are all "recipients ofa grant" as defined by 6 U.S.C. §609(a)(11), each of
              them was authorized to spend up to three percent of their grant for FY 2008 and FY 2009 and fIVe
              percent of their grant for FY 201 0 and FY 2011 on administration, Consequently, the amounts spent
              on administration by the Commonwealth of Massachusetts and local grant recipients on
              administration between FY 2008 and FY 2011 were specifically authorized by statute and are
              allowable expenses under the UAST and SHSP programs. Because the amount spent on
              administration did not exceed the amounts authorized by statute, there is no need to request that
              EOPSS return any funds. FEMA requests this recommendation be resolved and closed.

              OIG Recommendation 5: Correct the Homeland Security Grant Program Guidance to comply with
              statutory limitations on management and administration expenditures.

              FEMA Response: NOD Concur
              FEMA disagree with this recommendation, As explained in FEMA's response to Recommendation
              #4, Congress has not placed an absolute cap on the amount of appropriated funds available to pay for
              administrative expenses under the UASI and SHSP grant programs. lnstead. Congress has
              authorized each "recipient of a grant" to spend up to a certain percentage aftncir award on
              administrative expenses directly related to the grant. 6 U.S.C. § 609(a)(11). For FY 2011, the
              amount of the grant that each "recipient of a granf' was authorized by statute to spend on
              administrative expenses was five percent. DeparIment of Defense and Full Year Continuing
              Appropriations Act, 2011 (p.L. 112-10). To enforce the Congressional directive to FEMA to allow
              each "recipient of a grant" to expend up to five percent of their award on administrative expenses,
              FEMA's FY 2011 HSOP Guidance permitted each "'recipient ofa grant" to retain five percent of
              their award for administrative expenses. The FY 201] guidance allowed state grant recipients, such
              as Massachusetts, to retain five percent of the UASI and SHSP amounts distributed to it by
              FEMA. Additionally. the FY 2011 guidance permitted each local grant recipient (such as high~risk
              urban areas) to retain five percent of their grant awards for administration. This guidance is


              (I)      Deparlment 0/ Homeland Security Apprcprioti0l11 Act, 2010 (PL 111-83): Department a/De/emil and Full Ylcr
              Continumg Appropriati(J11s AN, 1011 (P.L 112·10); Consolidaled ApproprialiolU Act, 1011 (PL 112-74).



                                                                        3




www.oig.dhs.gov                                                       26                                                           OIG-13-44
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              consistent with the Congressional directives expressed in 6 U.S.C. § 609 and P.L. 112-10. Because
              FEMA's HSGP guidance is not in conflict with statutory provisions concerning the amounts grant
              recipients may spend on administration, it is not necessary to correct or otherwise amend the
              guidance. FEMA requests this recommendation be resolved and closed.

              OIG Recommendation 6: Require EOPSS to notify all entities awarded Homeland Security Grant
              Program funds of the requirement to use and follow Federal, State, and local procurement policies
              and standards as required for purchasing or acquiring equipment and services.

              FEMA Response: Concur
              The Assistant Administrator of the Grant Programs Directorate shall require EOPSS to infonn all
              HSGP awardees to use and follow appropriate procurement policies as required by 44 CFR § 13.36.
              EOPSS shaH report its plan to notify HSOP awardees of the procurement requirements to GPD no
              later than 90 days after the issuance of the OIG finall'eport. FEMA requests this recommendation
              be resolved and open pending the completion ofthe corrective action.


              OIG Recommendation 7: Encourage EOPSS to complete a review of aU grant~funded purchases
              using FYs 2008, 2009, 2010, and 2011 State Homeland Security Program and Urban Area Security
              Initiative grant funds that were exempt from the requirements of the State Procurement Manual.
              Th~se reviews should ensure that the procurements complied with the Federal requirements in 44
              CFR § 13.36.

              FEMA Response: Concur
              The Assistant Administrator of the Grant Programs Directorate shall require EOPSS to conduct a
              review of aU grant*funded purchases using FYs 2008, 2009, 2010, and 2011 State Homeland Security
              Program and Urban Area Security Initiative grant funds which were exempt from the requirements of
              the State Procurement Manual. These reviews should ensure the procurements complied with the
              Federal requirements in 44 CFR § 13.36. EOPSS shall report the results of this review to GPD no
              later than 90 days after the issuance of the final OIG report. FEMA requests this recommendation be
              resolved and open pending the completion of the corrective action.

              OIG Recommendation 8: Require EOPSS to revise and update the site visit protocol to ensure that
              it includes a review of subgrantee compliance with Fedeml procurement requirements.

              FEMA Response: Concur
              The Assistant Administrator of the Grant Programs Directorate shall require EOPSS to revise and
              update the site visit protocol to include a review of subgrantee compliance with the procurement
              requirements of44 C.F.R. § 13.36. EOPSS shall report to GPD once it has revised and updated the
              site visit protocol no later than 90 days after the issuance of the OIG final reIXJrt. FEMA requests
              this recommendation be resolved and open pending the completion of the corrective action.




                                                               4




www.oig.dhs.gov                                               27                                                     OIG-13-44
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommendation 9: Require EOPSS to perform more equipment spot checks to ensure that
              subgrantees develop and sustain a property management system that meets Federal requirements.

              FEMA Response: Concur
              The Assistant Administrator of the Grant Programs Directorate shall require EOPSS to perform more
              equipment spot checks during monitoring site visits. EOPSS shall report to GPO how it will verifY
              its personnel conduct consistent spot checks no later than 90 days after the final issuance afthe OIG
              final report. FEMA requests this recommendation be resolved and open pending the completion of
              the corrective action.

              OIG Recommendation 10: Recover the unallowable costs of$157,000 for construction oftbe
              Trencb Rescue Simulator.

              FEMA Response: Non Concur
              GPD granted permission to the SAA to install a trench rescue simulator because it is a training prop
              that required installation which is not considered construction. FEMA recommends the
              recommendation be resolved and closed.

              OIG Recommendation 11: Require EOPSS to obtain adequate supporting documentation before
              reimbursing sub-recipients.

              FEMA Response: Concur
              TIle Assistant Administrator of the Grant Programs Directorate shall require EOPSS to' obtain
              adequate documentation before reimbursing subgrantees. EOPSS shan ensure all subgrantees comply
              with 44 CFR §13.20Standards for financial management systems. (b) (6) Source Documentation.
              EOPSS shall report to GPD how it will obtain adequate documentation before reimbursement no
              later than 90 days after the issuance of the 010 final report. FEMA requests this recommendation be
              resolved and open pending the completion of the corrective action.

              Thank you for the work that you and your team did to better inform us throughout this audit. We
              look forward to the final report. Please direct any questions regarding this response to Gary
              McKeon. FEMA's Branch Chief Audit Liaison Office, at 202-646-1308.




                                                                5




www.oig.dhs.gov                                               28                                                      OIG-13-44
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                                     The Commonwealth of Massachusetts
                                     Executive Office of Public Safety & Security
                                                  Office of Grants & Research
                                                   Ten Park Plaza, Suite 3720
                                                  Boston, Massachusetts 02116                             Mary Elizabeth
             Devill L. Patrick                            Tel: 617~725~3301                                 Heffernan
                  Governor
                                                         Fax: 617~725-O260                                  Secretary
            Timothy P. Murray                                617 ~ 725~0267
                                                         www.mass.gov/eops                                Ellen J. Frank
           lieutenant Governor
                                                                                                         Executive Director

                  January 16, 2013

                  Anne L. RichanJs, Assistant Inspector General for Audits
                  DHS Office of Inspector General
                  245 Murray Drive, SW, Building 4 10
                  Washington DC 20528

                  Dear Assistant Inspector General Richards:

                  The Executive Office of Public Safety and Security (EOPSS) for the Commonwea1th of
                  Massachusetts appreciates the opportunity to resJXlnd to the Department of Homeland Security
                  Office of the Inspector General's Draft Audit, a copy of which was provided to us December 7,
                  2012.

                  EOPSS found the process to be cngaging and informative and the DHS OrG audit team to he
                  professional and courteous. There is always room for improvement when overseeing the
                  expenditure of public monies and we appreciate the objective review of the team to indicate
                  where we can make improvements. We take the team's recommendations seriously and have
                  already begun to implement changes as a result for example in our sub-recipient outreach and
                  monitoring processes.

                  While we agrtt= in general with many of the overall recommendations, we do disagree with
                  several of the specific examples cited, especially where EOPSS obtained written permission
                  from DHS/FEMA to take certain actions such as allowing our sub-recipients to utilize funds for
                  necessary Management and Administration costs in addition to those retained and used by the
                  Commonwealth at the state level . Similarly, EOPSS obtained written pennission from
                  DHSIFEMA, without a construction waiver, to allow the Boston UASI to install a trench rescue
                  simulator but the DHS 010 felt that the installation was unallowable witham a waiver. Other
                  examples where we disagree with the audit's conclusions are reflections of some of the inherent
                  challenges of implementing this complex grant program.

                  It is our hope that by conducting this and other state audits, the DHS OIG gains an in-depth
                  understanding of the realities of implementing this highly regulated and complex grant program,
                  which diffcrs from many other federal grant programs in that it entails iniliating entirely new
                  operating methodologies and programs; buying, installing and effectively utilizing sophisticated




www.oig.dhs.gov                                                29                                                          OIG-13-44
                                       OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  equipment and infrastructure; and continuously coordinating with a wide range of stakeholders to
                  achieve myriad programmatic outcomes.

                  EQPSS has worked to implement effective homeland security projects and programs for nearly a
                  decade now. It is dear however that some of the prerequisites of this grant program such as
                  limiting Management and Administration funds to no more than 5% of the total award and
                  requiring that funds be available for sub-recipient use within 45 days ofthe award actually
                  hinder the effectiveness of the program by not allowing for sufficient planning time or dedicated
                  program mWlagement.

                  During the audit,. EOPSS sought to conununicate to the audit learn the importance of planning in
                  the effective implementation of homeland security programs. We believe that by requiring
                  prospective sub-recipients to provide detailed plans and budgets before contracts are issued, we
                  are both building a better program from the outset and ensuring thal sufficient programmatic and
                  fiscal controls are in place to ensure accountability.

                  Underscoring the importance of planning in effective program implementation, EOPSS has
                  found that the most effective homeland security-funded projects are those that cut across
                  jurisdictional and discipl inary boundaries and pull together stakeholders to leverage each other's
                  knowledge and resources. This kind of complex coordination, which is central to FEMA's own
                  goals, takes a great deal of time and human engagement. This planning work is what gets lost
                  with such strict limits on the use ofM&A and the 45 day obligation requiremenr.1t is our hope
                  that when the DHS OIG presents its overoll findings and recommendations about the Homeland
                  Security Grant Program, this perspective will be represented.

                  Again, we appreciate the opportunity to respond to the draft audit and have provided responses to
                  specific recommendations in the attached audit response document.

                  Sincerely,



                  Ef!!:: ~·;f~
                  Executive Director


                  Cc;    Michael Siviy, Director of Grants Management, Office of Inspector Generol, DHS
                         Dennis Deely, Audit Manager, Office of Inspector General, DHS




                                                                                                                   2




www.oig.dhs.gov                                                 30                                                      OIG-13-44
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security




                                  Massachu setts Response to DHSjO IG Draft Aud it

                  Homeland Security Strategies: [Draft Audit p.3]

                  Response to Recommendation "1. P. 7 Draft Audit:

                  EOPSS informed the audit team during our first meeting that we are aware tha t our State Homeland
                  Security Strategy (SHSS) is out of date and that we are working on an updated State Strategy in concert
                  with the FEMA·required Threat Hazard Identification Risk Assessment (THlRA) process. In 2011 when
                  PPD-8 and the National Preparedness Goa l were announced , it was clear to us that we w ould want to
                  have our updated Sta te Strategy align with FEMA's nation-wide guidelines. W e had to wait until the
                  whole program was laid out between March 2011 and April 2012, before we could begin to update our
                  state strategy to conform to the new FEMA program. As soon as the new core capabilities and THIRA
                  process were rolled out, we commenced a comprehensive statewide risk, vulnerability and capabilities
                  assessment process that will inform both ourTHIRA and State Strategy. We expect to be able to
                  present our updated State Strategy to FEMA in the spring of 2013.

                  Performance Measures [Draft Audit p, 7]

                  Response to Recommendation # 2 P. 8 Draft Audit

                  The draft aud it also asserts that EOPSS' existing homeland security strategy does not have measurable
                  objectives and that EOPSS has not evaluated progress towards achieving the goals and objectives of its
                  2007 State Homeland Security Strategy.

                  While we agree that goals and objectives should be time limited and that a more detailed performance
                  evaluation plan would be preferable, the 2007 State Homeland Security Strategy does detail 33 specific
                  implementation steps related to each of the 18 objectives under the three broader goals. At the end of
                  May, 2010 EOPSS completed an internal progress report on its homeland security program that included
                  a chart indicating the degree of progress towards accomplishing each implementation step within the
                  state's goals and objectives. A review of this progress was also provided in January 2010 at a statewide
                  stakeholders' meeting to plan for the following grant year.

                  The 124-page, May, 2010 report's Executive Summary describes several frameworks within which to
                  view the homeland security grant program, its activities and accomplishments. The body of the report,
                  not only documents what had been done between 2003 and 2010 with homeland security grant funds,
                  but what had been accomplished. This document, as well as a September 2011 Executive Summary
                  update, was provided to the DHSjOIG auditors. However, the draft audit only refers only to a 2008
                  document entitled "Trends and Process," which was an earlier internal review of the program.

                  While we agree that SMART Goals and objectives should be included in our new State Homeland
                  Security Strategy and that at both the state and federal level, there is a lack of specific, quantitative
                  outcome measurements, we do not agree with the impression given that EOPSS has not engaged in any
                  evaluative activities of its homeland security program. Moreover, the table provided in the audit report
                  provides an incomplete representation of the state strategy because it shows only a partial description




                                                                                                                              1
                  JanuarY, 2013




www.oig.dhs.gov                                                       31                                                          OIG-13-44
                                          OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




                                  Massachu setts Response to DHSjO IG Draft Aud it

                  of just one of the several objectives per goal and does not include any of the specific implementation
                  actions that are in fClct associ.ired with each of the 18 objectives in the Str,Hegy.

                  Obligat ion o f Grant Fund s: ( Draft Aud it p. 9]

                  Response to Recommendat ion II 3 P. 11 Draft Audit

                  Prior to the DHS/O IG audit, EOPS$ believed that it was in compliance with the 4S·day obligation
                  requirement. Each year, EOPSS calculates the amount of the 80% local share funds and UASI funds that
                  will go to the state's homeland security planning regions and sends them a Letter of Obligation for that
                  amount of funding within the 45 day time period. DHS conducts regular on-site monitoring of EOPSS in
                  both the fiscal and programmatic areas and has never informed EOPSS that this practice is non-
                  compliant with the 45 day obligation requirement.

                  It is true that EOPSS does not issue contracts until a detailed spending plan and budget is submitted by
                  the intended sub-recipient. Because for the local share funds, these spending plans are embedded in
                  annual "regional" plans, EOPSS provides a month or more for the homeland security regions to put
                  together these documents. EOPSS then reviews the documents to ensure that proposed projects are
                  consistent with the state's homeland security strategy, the Investment Justifications approved by DHS
                  for that funding year and that the projects are both allowable and address a homeland security gap.
                  This review process includes meeting with representatives of the homeland security regions to discuss
                  questions or concerns and the re-submission of revised plans and budgets as necessary. Once the
                  review process is completed, the contracting process begins. This process can be as quick as three
                  weeks but sometimes gets held up at the sub-recipient end because the sub-recipient does not return
                  the signed contract document to EOPSS in a timely manner.

                  In 2008 and 2009 EDPSS conducted an open and public award process for a fiduciary agent to receive
                  the local share/regional funds on behalf of the regional homeland security advisory councils. Previously
                  each region had its own fiduciary agent. EOPSS saw the consolidation of this function as a means to
                  obtain greater efficiency and coordination of effort. Without a lead agency or fiduciary to receive the
                  funds, EOPSS could not contract the funds to the regional advisory councils. The open and public award
                  process for the fiduciary took more time than expected due to an insufficient response to the first
                  posting. The prolonged open and public award process continued into 2009, after which EOPSS was
                  able to begin to streamline the process to the point where in 2011 the contracts were signed within 151
                  days and in 2012 contracts were signed on December 14, 2012, 74 business days after EOPSS received
                  its award from the federal government. The trend of shortening the time period between the award to
                  the state and the state contracting funds to the homeland security planning regions would also be
                  apparent for FFY 2010 funds if it weren't for the fact that one of the regions delayed submitting a
                  detailed scope of work (plan) and budget for 10 months thereby affecting the average length of time to
                  make contracted funds available.

                  EOPSS disagrees with the DIG's assertion that the amount oftime that it took for EOPSS to sign
                  contracts with its homeland security region sub-recipients "may have reduced the Commonwealth's
                  ability to prevent, protect against, respond to, and recover from acts of terrorism, major disasters, and

                                                                                                                              2
                  JanuarY, 2013




www.oig.dhs.gov                                                        32                                                         OIG-13-44
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security




                                  Massachu setts Response to DHSjO IG Draft Aud it

                  other emergencies." This assertion is unsubstantiated and a deeper review of the lead time that each
                  homeland security funded project requires would quickly make it cledr thelt founddtional plann!n!! and
                  coordination activities take place for many months before projects are ready to be implemented and
                  that the regional councils themselves were not read y to implement the projects outlined in their plans.
                  The additional time that it took to sign these contracts did not impact the Regions' progress.

                  EOPSS is committed to continuing the trend of making funds available for sub-recipients to spend as
                  soon as possible, however, EOPSS will not agree to sign a contract or interdepartmental service
                  agreement (ISA) w ithout a detailed budget and scope o f services and without a sufficient internal revie w
                  and approval process.    In conversations, both DHS and the OIG audit staff acknowledged that the 45-
                  day unconditional obligation requirement is not realistic for most states and does not take state-level
                  contracting, grant management and fiscal processing considerations into account.        It is our hope that
                  the OIG might also include a general recommendation to extend the date of required obligation while
                  also extending the perioo of performance of the HSGP grants to better match necessary planning
                  requirements for most effectively implementing the unique programs that these grant programs
                  support.

                  Management and Administration Expenses

                  Obligation of Grant Funds: [Draft Audit p. 111

                  Response to Recommendation It's 3,4 P. 12 Draft Audit

                  M assachusetts disagrees with the OIG's assertion that the Commonwealth exceeded limits placed on
                  the utilization of management & administration (M&A) funds and contests the recommendation to
                  return a portion of the M & A that it and its sub-recipient~ have u~ed to implement the HSGP program.
                  The e-mail t hread reproduced below represen ts the Commonwealth's good faith efforts and due
                  diligence in securing DHS approval to retain the annual allowed percentage of M&A tha t the state is
                  eligible to retain and allow sub-recipients to al~o retain a portion of their o w n awards for the
                  management and administra tion of their grant funds.

                  The following e-mail request and response from DHS represents written perm ission from our federal
                  funding agency to retain t he allowed annual percent age of M &A and to allow our sub-recipients to also
                  retain the allowed annual percentage of M&A from their awards.

                  ;' From: Donehoo. Dennis (Denms.DonehoolaJdhs.gov]
                  Selll: Wednesday. October 22.20083:26 PAl
                  To: Graffltn. Victorta (OGR)
                  Cc: Kevan. Robert: flampton, Judy: Timperi, Jejf(OGR)
                  S ubject: RJ::: AI &A Clanficalion
                  V;ctona,

                  After rf!NJeWIng the Grant GUIdance and discussion m GPO. we have determined that the State IS eligible
                  to retam 3% of the Grant fO( M&A Local sub-recipients are ellf}lble to retam 3% of what they are awarded
                  If the State Wishes to pass dawn a port/Ofl of their M&A to the locals. then the locals M&A cannot exceed
                  3% Forexample, tor $100 00 lhe State could retain $3.00 M&A The local SUb-reclpi6rlts may retam 3%

                                                                                                                                3
                  January, 2013




www.oig.dhs.gov                                                       33                                                            OIG-13-44
                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security




                                   Massachusetts Response to DHSjOIG Draft Audit

                  cI $ 9700 whICh was passed dawn from the State (which IS $ 2.91) Neither the State nor the local sub-
                  feclplent can exceed 3% 8<Y;h for thel' M&A If you have any further questKXlS please      '*'
                                                                                                        not hesitate to
                  call

                  Dennis K DcnehOo
                  Program Analyst
                  Grant Programs Directexate
                  Federal Emergency Management Agency
                  500 C Street SW
                  Techworfd BUlldlllg Room 5008
                  wash/natoo DC 'XJ47?
                  202· 786-9837 (Office)
                  202-536-7374 (B-Berry)
                  202-786-9921 (Fax)



                  From: GriJffli", Victor/it (OGR) {mallto: Vict oriil.Grilfflin@stat e.miI.us]
                  Sent: WednesdiJy. October 22, 200812:56 PM
                  To: Donehoo, Dennis
                  Subject: RE' M &A ClarirlciJlion

                  HI Dennts' I know that Jeff spoke to you about this last week but we are stilI a little bit confounded and I
                  thmk that puttmg our questton III wntlng to you, is probably appropnate at thIs point

                  In prepanng to obligate FFY 2008 funds, we noticed that there appears to be a sl9l1Jficant change
                  governmg the distribution of M&A turds We would /Ike to clanfy the FFY 2008 HSGP Management &
                  AdministratIVe (M&A) a/Jowabilltyas It pertams to us (the award r9CIPlent and SAA) and local sub·
                  recIpients (our Regional Homeland SecUf/ty Advisory Councils and the Boston-area UASI)

                  Companng the FFY 2007 HSGPgUldance to the FFY 2008 guidance appears to reveal a Significant
                  departure from FFY 07 about which we are seeking c/anfication Hoo'ever, an FAQ regardsng FFY 2008
                  M&A appears to confirm our anginal understanding about the dlVISJOn of M&A from total award and sub·
                  recipIent awards

                  The FFY 2007 HSGPgUldance specific          to M&A reads as follows

                  "All prOJrams Within the FY 2007 HSGP have allowable M&A costs for both the State as well as the local
                  Unit of government. Urban Area, or destgnated subgrantee No mere than 5 percent of the total amount
                  alaa/ed to the State for prOJrams Within FY 2007 HSGP may be retamed at the State level and used for
                  M&A purposes In ackiJtlOO, kx;al JurIsdICtion subgrantees may retam and use up to 3 pen:;ent of thetr
                  subaward from the State fer /ocaJ M&A purposes "

                  The FFY 2008 HSGP guidance IS dsfferent In respect to thiS ISSue, and roods      as follows,

                  "A maximum of up to three percent (3%) of funds awarr:.la:1 may be retained by the State (as opposed to 5
                  percent [5%J 01 furds as naiad In the FY 2{)()7 HSGp) , and any funds retamed are to be used solely for
                  management and administratIVe purposes asscclatad With the HSGP award States may pass through a
                  portIOn of the State's M&A allocation to local subgrantees to support local management and
                  admlnlstratlO1 actlVltteS, the (Nerall subgrantee M&A amount may not equal more than three percent
                  (3%) .

                  Additionally, the FFY 2008 FEMA·GPD FAQ document (dated mOO8) on the FEMA webSite has a
                  quest/Ofl and response specific to M&A, which reads as follows,




                                                                                                                                 4
                  January, 2013




www.oig.dhs.gov                                                          34                                                          OIG-13-44
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security




                                     Massachu setts Response to DHSjO IG Draft Aud it

                  "Question How much fundIng tcmards management and administration (M&A) are subgrantees a//oNed
                  tospend? ~


                  "Response Subgrantees are alk::1Ned to spend no more than 3% of their CNerall HSGP award for M&A
                  purposes SAA's may also opt to pass doNn a portlCX1 of their M&A funds to subgrantees. rcwever the
                  total M&A amount spent by subgrantees cannot exceed 3% overall ..

                  Our mterpretatJO(l of the above IS that we (the SAA and reclpJent at this (undmg) may retam up to 3% of
                  the total HSGP award amount for M&A purposes In add/I/Ofl, sub-recipients (a g . the Councils and the
                  UASI) may retain up to 3 percent of theIf lOcal HSGP awards for M&A purposes This mterpretatlOn
                  matc he.'_ OJ! cum:mt operating mrriBI

                  As you kn<:NJ from your site visIt. our current operatsonal mcxJel in Massa:;hUsetts (of the SAA and the
                  CouncllsAJASI) - whICh IS necessary for many reasons, the foremost being the lack of a stateWIde ard
                  operatlOflal county government stn.x:ture - IS dependent on havIng adequate M&A turr:Js at the State and
                  local subgrant level

                  Agam, the purpose of puttmg thIS questKYI m wntmg IS so that we are clear We WIlt abide by whatever
                  deterrmnatlO(J IS made by US DHS




                  Thank you agam (or your help.

                  Victona Graff/in

                  Victona Graff/in. Director
                  Home/and Secunty DivlsKXI
                  Office of Grants and Research
                  ExecutIVe OfflCs of PubIK; Safety & Secunty
                  Ten Park Plaza. SUits 3720
                  BostOfJ. MA 02116
                  (617) 725-3378
                  (617) 725-0260 (Q
                  victorIa qrafflir@statema   us

                  The Commonwealth of Massachusetts is a home rule state, without a county level of government. In
                  order to be able to accomplish anything that coordinated our 351 cities and towns, w e had to establish
                  homeland security planning regions. In 2004, Massachusetts divided the state into five homeland
                  security regions and appointed multi-disciplinary, multi-jurisdictional planning councils for each region.
                  This system has enabled the state to accom plish much larger projects tha n would ha ve been possible if
                  the 80% local share of HSGP funds were distributed either municipally or by competitive application
                  process. We are very proud of the accomplishments of this system, not the least of which is the cross-
                  disciplinary problem solving and relationship building that has resulted from the establishment of these
                  regions and councils. By giving EOPSS written permission to retain our M&A to administer the grant
                  program and to allow our regional fiduciary to retain M&A out of the regional awards, FEMA enabled
                  this more effective, regional homeland security system to function. Again, we would urge the DHSjOIG
                  to consider the programmatic benefits of recommending that the use of M&A be expanded as opposed
                  to merely looking at whether or not FEMA should have allowed EOPSS to allow its sub-recipients who
                  were implementing the regional council projects to use M&A.

                                                                                                                               5
                  January, 2013




www.oig.dhs.gov                                                     35                                                             OIG-13-44
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                                  Massachu setts Response to DHSjO IG Draft Aud it


                  Procurement Practices, Property Records, and Expenditure Review..

                  Although EOPSS disagrees about the facts in several of the examples provided by the OIG regarding
                  procurement practices, property records and expenditure review, we nonetheless Cllilree that there is
                  always room for improvement in communicating with and monitoring sub· recipient performance with
                  regard to the above issues. We have therefore already begun conducting additional outreach to our
                  sub-recipients to remind them of these obligations, which are spelled out in the special conditions
                  documents that they sign at the time they receive their contracts and ISA's.

                  Procurement Practices.;.

                  Obligation of Grant Funds: [Draft Audit p. 13]

                  Response to Recommendation      n 5 P. 13 Draft Audit
                  The draft audit report provides three examples that the OIG feels are instances in which local, state, or
                  federal procurement rules were not sufficiently followed. We disagree about the facts in two of the
                  three situations. However, we do agree that procurement is an area with great potential for error and
                  impropriety and that therefore ongoing training, outreach and monitoring around sub-recipient
                  procurement practices is a valid recommendation. In mid-December 2012, EOPSS held a conference call
                  to underscore with its homeland security regional council members and fiduciary representatives the
                  importance of complying with federal rules as well as state and local laws and regulations. This
                  particular issue was highlighted in the call because of concerns that the OIG raised regarding the
                  procurement of training services.

                  The first example provided by the DHS/OIG is one in which there appears to be a difference in
                  interpretation of Massachusetts General Laws Chapter 30B, local procurement rules. The DHS/OIG
                  asserts that the fiduciary agent should have gone out to bid for ongoing services related to technical
                  assistance and design services for interoperable communications systems. Before exercising the
                  optional renewal provision in this existing contract, the fiduciary agent contacted the Massachusetts OIG
                  to ensure that it was not exceeding the allowable amount of additional fees under MGL Chapter 30B.
                  The response received from the state OIG was that because the original contract was written to include
                  up to three years of design services, the normal restriction on adding more than 25% of the value of the
                  contract does not apply because it is a contract renewal and not an extension.    The original contract
                  was competitively bid according to MGLChapter 30B.

                  The fiduciary sought guidance from the state OIG, whose office is the primary enforcement agency for
                  Chapter 30B procurement, and proceeded based on that guidance. While it is possible that the
                  fiduciary erred in its understanding of its own question to the state OIG and the OIG's response, we feel
                  that the fact that the fiduciary made an effort to check with the state OIG on this nuanced procurement
                  issue is an indication of their level of awareness and commitment to the state's very stringent and
                  complex local procurement rules. All fiduciary staff involved in procurement activities have received


                                                                                                                              6
                  January, 2013




www.oig.dhs.gov                                                     36                                                            OIG-13-44
                                          OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




                                  Massachu setts Response to DHSjO IG Draft Aud it

                  state procurement training from the office of the state OIG and have certification to at least the level of
                  goods and services procurement.

                  In the second elCample of training courses not competitively procured, we agree that EOPSS needs to
                  remind sub. recipients that even if a particular type of procurement is exempt from competiti ve bidding
                  requirements at the state or local level, this does not elCempt procurement from federal competitive
                  procurement requirements. In December, 2012 EOPSS held a special conference call with sub-
                  recipients to reiterate this point. However, EOPSS does not agree that the particular training courses
                  w ere p roc ured o ut of comp liance w it h federal r ules. Alt hough state procu rement ra ws do not re cognize
                  sole source procurements, except in extremely limited circumstances, sole source procurement is
                  allowed under federal procurement according to 44 CFR 13.36 4.1.A.

                  In two of the four examples cited by the audit team} the MACTAC and Structural Collapse Trainings} the
                  training providers selected were the only ones that were either certified to provide a desired
                  certification level of training, or in the case of MACTAC, the only one that provides the specific training
                  course. The process for determining that these circumstances justified using the particular training
                  providers was outlined in a training petition to EOPSS by the homeland security council. EOPSS
                  approved the training petition. A quote process was used for the $147,000 SWAT course and the quote
                  sheet was provided to the DHS/OIG auditors. Finally, the $30,000 training cited by the OIG was actually
                  part of the MACTAC training not a separate example.

                  While we do not feel that the procurement of these training courses was non-compliant, we do agree
                  there needs to be more rigorous application and documentation of competitive procurement generally
                  in the area of trainings. We will continue to work on this with our sub-recipients.

                  In the third example, the Massachusetts Environmental Police (MEP) purchased 16 all-terrain vehicles
                  (ATV's) for $100,316 to assist in fulfilling their search and rescue mission. MEP provided EOPSS with
                  docu mentation that they solicited at least fou r quotes for the vehicles before ma king the purchase,
                  meeting the federal requirement for competitive procurement. Nonetheless, after the auditor's
                  reviewed this procurement, EOPSS did find that the MEP should have followed state procurement
                  requirements, which dictate either using a statewide contract or conducting a Request for Quotations
                  process if the desired goads or services are nat available through an existing statewide contract.
                  Statewide contracts are competitively bid by the state's Operational Services Division, which is the
                  procu rement department for the Commonwealth. It appears that the available statewide contract for
                  ATVs, did not meet MEP's needs, however, they should have more closely fallowed procedures for
                  conducting a procurement when no existing statewide contract matches the specified goads or services.
                  EOPSS has met with MEP about this issue. EOPSS has discussed this situation with MEP and they
                  understand the need to fallow and document procurement policies more carefully. MEP also has an
                  additional procurement professional assigned to them to assist with procurements such as this one.
                  EOPSS has also already provided a mandatory grant management outreach to all state-share 2012 sub-
                  recipients that included a review of procurement requirements. We will also be sure to review
                  procu rement when we do site visits and ather monitoring.



                                                                                                                                 7
                  January, 2013




www.oig.dhs.gov                                                        37                                                            OIG-13-44
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security




                                  Massachu setts Response to DHSjO IG Draft Aud it

                  Property Record Requirements: [Draft Audit p . 1S ]

                  We disagree with the DHS/OIG auditor's assertion that EOPSS' and our sub-recipients' systems for
                  managing property do not ensure full compliance with fede ral and state requirements.

                  The DHS/OIG asserts that decals are not placed on equipment in a timely manner and used the examp le
                  of security cameras that had been installed without decals having been placed on them. The decals in
                  question serve two purposes, one is to state that the item has been purchased with homela nd security
                  grant funds and the other purpose is to provide a unique identification number for inventory tracking.

                  Typically, decals are placed on items as close to the time that they are delivered as possible. The
                  fiduciary mails the inventory stickers to the end user when they receive sign off that the equipment has
                  been delivered. The fiduciary simultaneously enters the data into its inventory tracking spreadsheet and
                  the end user affixes the tags as soon as possible after the equipment is received.

                  The DHS/OIG team asserts that the fiduciary stated that decals are placed on items only at the time of
                  the annua I inventory check. The fid ucia ry stated however that a pplying decals at the annua I inventory
                  is a "backup" to the standard procedure and does not represent the normal practice. The DHS/OIG also
                  stated that because decals had not been placed on some security cameras prior to them being mounted,
                  that the fiduciary may have been unable to access the equipment via the equipment inventory. This is
                  not the case because the electronic inventory is initially populated at the time the equipment is
                  delivered. Information such as inventory tag numbers are often added to the record that is created as
                  soon as the recipient sends the signed receiving copy to the fiduciary.

                  The DHS/OIG appears to have misunderstood how the fiduciary's purchase order system, including item
                  details, feeds into the electronic inventory tracking system.  The draft audit states that, 'Although
                  numerous items were included on one invoice, 'item descriptions' listed in the property records were
                  genericallv titled such as 'technical rescue equipment' or 'hardware and software.' The individual items
                  included on the purchase order were hydraulic jacks, hoists, and communications equipment, which are
                  susceptible to theft and therefore should be properly recorded and tracked.     N




                  There are dollar thresholds involved in the requirement to track inventory, These are $5}000 at the
                  federal level and $500 per EOPSS' homeland security sub-grant conditions. The individual items that
                  are contained in the technical rescue trailers do not generally meet either of these thresholds, though
                  the trailer itself does. The technical rescue trailers are included in the inventory list. Each trailer has a
                  list of items that are contained within the trailer. The homeland security councils have established or
                  are in the process of establishing procedures and protocols to ensure that these assets are returned
                  from deployment with t he same equipment that they left with. At the time of the auditors visit, the
                  Southeast Region trailers were in the process of being delivered by the vendor and the contents
                  finalized,

                  The third example that the auditor provides states that "the fiduciar~' agent did not include serial
                  numbers from equipment in its records. In addition 31% of items listed in the Northeast's Inventory
                  records and 78% of the items listed in the Southeast Region's inventory records did not have an inventory

                                                                                                                                  8
                  January, 2013




www.oig.dhs.gov                                                        38                                                             OIG-13-44
                                          OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




                                   Massachu setts Response to DHSjO IG Draft Aud it

                  item number. "    The federal requirement is for either a serial number or a unique identification number
                  to be included in the inventory for equipment. For items that meet the $500 threshold and there fore
                  require tagging, typically, the number printed on the bar-coded tag is used as the unique identify ing
                  number, rather than the se ria l number. This is allowable under the federal equ ipment inventory
                  guidelines and makes more sense given the need to tag equipment.

                  The percentages listed above were not mentioned in the earlier audit ou tline and so we were not able
                  to discuss with the audit team what they specifically are referring to. However, after reviewing the
                  inventory records , it is clea r that there are items listed in the inven tory lis ts that do not meet the dollar
                  value threshold and that therefore may not have been tagged and recorded with a unique identification
                  number. However, we do agree that if an item is included in the inventory list, even if it is not required
                  to be included, it should have as much information as possible associated with it and EOPSS will follow
                  up with the fiduciary to ensure that this occurs.

                  The fourth example cited by the DHSjOIG auditor asserts that EOPSS does not do sufficient equipment
                  spot checks and that the only equipment spot checks done by EOPSS in 2012 were done during the audit
                  itself.

                  In fact, over the past five years, EOPSS' Homeland Security Division has conducted 206 monitoring visits
                  and desk reviews across all of our homeland security grants. In calendar years 2011 and 2012 EOPSS
                  conducted 14 site visits in each of those calendar years related to the grant programs being audited.
                  Additional site visits were conducted by the homeland security division staff on other homeland security
                  grant programs not included in the audit. While it is true that four of the site visits conducted in 2012
                  occurred simultaneously with the auditor's site visits, EOPSS felt that these visits represented a good
                  opportunity for us to do equipment spot checks.

                  EOPSS provided the auditors with our monitoring log where these site visits are recorded, along with
                  examples of site visit reports that document equipment spot checks.           It is possible however that
                  because some entries list the type of monitoring as a site visit, not an equipment check, that the
                  auditors may have thought that equipment is not checked during a normal site visit. Site visits almost
                  always include equipment checks, except in the case where the fiduciary agent for the local share funds
                  is being visited by EOPSS.

                  EOPSS has contracted with the fiduciary to conduct equipment checks in each of the homeland security
                  planning regions, which the fiduciary does, not only annually but also in the normal course of daily
                  business. Additionally, EOPSS staff attends every regional homeland security advisory council meeting,
                  of which there are four or five each month. At these meetings and at other EOPSS and Council-
                  sponsored events, EOPSS staff views equipment that has been purchased. Also, as a result of attending
                  monthly Council meetings, EOPSS staff is generally aware of the status of specific equipment and any
                  issues that may be associated with these procurements.




                                                                                                                                      9
                  JanuarY, 2013




www.oig.dhs.gov                                                         39                                                                OIG-13-44
                                             OFFICE OF INSPECTOR GENERAL
                                                    Department of Homeland Security




                                    Massachusetts Res ponse t o DHS/OIG Draft Audit

                  Construction Ite m

                  EOPSS believes t hat the Trench Rescue Simulator is an allo w able expenditure as a result of our April,
                  2011 e-mail corr espondence w it h DHS r Eg arding t his project . Note: The e-mail messages below bot h
                  relat e specifically to the Trench Rescue Simulator project for the Boston UASI.

                  From : Dc:nehoo, Oemis [mai1to Denn is Onnehnp@dhsnoy]
                  Sent: Tuesday, April 12, 20119:40 AM
                  To : Chipman, Brook (OGR)
                  Subj ect: RE: EHPSM submissiOn

                  Brook,

                  Also, a construction waiver is not necessary, as t his is the installation of a trainirg prop .




                  Denni s Donehoo
                  Program Analyst
                  Eastern Branch of Preparedness Grants Division
                  Grant Programs Directorate
                  Federal Emergency Managem ent Agency
                  Department of Horn eland Security
                  800 K Street NW
                  Techworld Building Room 5008
                  Washington , DC 20472 -3625
                  202-786-9837 (Office)
                  202-786 -6621 (Fax)
                  202-536-7374 (Blackberry)
                  WARNING: This aOclJI'Mm is FOR OFFfCJAL USE OM Y (FooO). ft is to be contlOkd, sore(/, handfed, transmtt~d, diftritut~d,
                  and d~sN of in accord.;nc~ with DHS poley r~Jatin!} to FOOD information. This infotmatiOn shafJ not be diftri/:x)t~d beyond th~
                  anginal :Jddr~.ss;e~s wtholJt prior :JlJthoriz:Jtion of tM Of(jinf1tor.


                  From: Ch ipman, Brook (OGR) [mailto:Brook.ChipmatJ(IDstate.ma.usl
                  Sent: Tuesday, April 12, 20 11 9:37 AM
                  To: Donehoo, Dennis
                  Subj ect : RE : EHPSM submission

                  Great, thanks .




                                                                                                                                                10
                  January, 2013




www.oig.dhs.gov                                                                40                                                                    OIG-13-44
                                              OFFICE OF INSPECTOR GENERAL
                                                     Department of Homeland Security




                                     Massachusetts Response to DHS/OIG Draft Audit

                  From: Dooehoo, Dem is [majltn 'Genojs Ppnehpo@rlbsgOY]
                  Sent: Tuesday, April 12, 20119 :09 AM
                  To: Chipman, Brook (OGR)
                  Subject: RE : EHPSM submission

                  Brook,

                  I checked the EHP tracker and this has been approved. Just waiting forthe letter.




                  Dennis Donehoo
                  Program Analyst
                  Eastern Branch of Preparedness Grants Division
                  Grant Programs Directorate
                  Federal Emergency Managem ent Agency
                  Department of Hom eland S ecurity
                  800 K Street NW
                  Techworld Building Room 5008
                  Washington, DC 20472-3625
                  202-786 -9837 (Office)
                  202-786-6621 (Fax)
                  202-536-7374 (Blackbeny)
                  WARNING: ThiS t;kX'Uf~nt is FOR OFFfCJAL USE 01lL Y (FOUO). It is to ~ contlfJkd, $OIed, h'Hld~ tnlnsmttM, difJtribut~d,
                  ~fId d~sed of jf) f1ccord.mce wit}) DHS poky re~tJn9 to FOOD K1fom~tio!l_ This iflfotmfltion shill! 001 Ix: di!iribtJted beyond the
                  orirJinllf Ilddressees wthallI prbr authorization of tM originator.


                  From: Chp man, Brod< (OGR) (mailto:BroolcChipmap@ state.ma.usl
                  Sent: Mon:::!ay, Ap-il l l, 20 11 3:58 PM
                  To: Donehoo, Dennis
                  Subject: FW : EHP9\'1 submissbn

                  Dennis,

                  CheclOng in on this EHPSM .

                  We originaly submitted it on 213 and then provided a SHPO on 3/10

                  Any update would be appreciated.

                  And just to confirm our earlier exchanges on a matter involving this project: our
                  understanding based on earlier phone and e-mail exchanges IS that we don't need to
                  request a construction waiver regarding the installation of thi s trench rescue 'prop'.

                                                                                                                                                    11
                  January, 2013




www.oig.dhs.gov                                                                  41                                                                      OIG-13-44
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                                     Massachusetts Response to DHSjOIG Draft Audit


                  Thanks,

                  Brook


                  From: Chipman, Brook ( OGR)
                  Sent: Tuesday, April 0 5, 2011 2:34 PM
                  To: 'Donehoo, Dennis'
                  Subject:: FW: EHPSM su bmission

                  Oennis,

                  Hope all is well

                  Can you please help me get a status on these two EHPSM subm issions or is it OK for
                  me to send an e-mail to check to askcsid@dhs.90V?

                  Thanks,

                  Brook


                  From : Chipman, Brook. ( OGR)
                  Sent: f\londay, t-larch 2S, 20 11 9:53 AM
                  To: 'Donehoo, Denni s'
                  Subject: FIN: EHPSM submission

                  Good morning,

                  Just checking in on these EHPSM 's for the Boston UASl's:

                            'Trench Prop ', U9·5A, subm itted 213, SHPO on 3110 ,
                            'Urban Shield ' Exercise , subm itted 2128.

                  Thanks,

                  Brook



                  From : Chipman, Brook ( OGR)
                  Sent: f>1onday, February 28, 2011 2:20 PM
                  To: 'ASKCsid'
                  Cc: 'Donehoo, Dennis'; 'Barron, Jenny ( OGR)'
                  Subject:: EHPSM submission

                  Hello ,

                                                                                                        12
                  JanU<3 ry, 201 3




www.oig.dhs.gov                                                   42                                         OIG-13-44
                                             OFFICE OF INSPECTOR GENERAL
                                                    Department of Homeland Security




                                    Massachusetts Response to DHS/OIG Draft Audit

                  Please let me know if you have an y questions regarding this submission .

                  Thanks,

                  Brook


                  Mr. Brook W. Chipman
                  Senior Program Manager
                  Executive Office of Public Safety and Security
                  Office of Grants and Research
                  Homeland Security Division
                  Ten Park Plaza, Suite 3720
                  Boslon,MA02116
                  617-725-3332 voice
                  617-725-0267 fax
                  brook. chip man@state.ma.us
                  www.mass.go\.1s op ss




                  You do notneed CCI'lstruction       W(tjV€rS   for this type of'nstdlation .     We require    construction    wOlVers   for
                  Jarge projects that involves breaking ground, or remodeling ab~'djng to the pantiis footpfint is
                  chaJged.




                                     FEMA

                  Dennis Donehoo
                  Program Analyst
                  Easf2 rn Branch oj Preparedness Grants Division
                  Grant Programs Directorate
                  Federal Emergency Management Agency
                  Department oj Homeland S€cwlty
                  800 K Street NW
                  Techworld BUilding &am 5008
                  Washington, DC 20472-3625
                  202-786-9837 (Office)
                  202-786-6621 (Fax)
                  202-536-7374 (Blackherry)
                  WARNING. This dOC/iment is FOR OFFfClAL USE 01\( Y (FooO). It is to be contlOled, !fared, ham:J~d, /r;msmited, dfflriJ:;t)t~d,
                  and d~sed of in accardi/flcl! with DHS policy reJatll19 to FOOD iJ?for~lIon This infotmalion sharI oot be d~riblJted beyond t~
                  onginaf addre SSfJes w tMJlJt prior i1u/flOrltO/tion of 1M Of(}irI;xor



                                                                                                                                                 13
                  January, 2013




www.oig.dhs.gov                                                               43                                                                      OIG-13-44
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security




                                  Massachusetts Response to DHSjOIG Draft Audit


                  Fro m : Chipmao/ Brook (OGR) (fT1iIilto:B(QQk Chi/Jll1iff1@sfatemaus!
                  S e nt: FridiJ~ April 15. 20111:52 PM
                  To: dennis.donehoo@dhs.oov
                  Subje ct: Construction Waiver Q

                  Dennis,

                  I want to check with you regarding the need for construction waivers for three UASI 09-funded projects
                  at four sites.

                  In the attachment ''VAS! 09 Project Construction Wal'vel3" Question I have listed the proposed equipment
                                                                                       H


                  purchases involved by site (the flM:) SomelVille ones are in one chait).

                  I have also attached the four related EHPSM, that HoE will soon submit, as these contain more project
                  information including photos of the insta/lation locations.

                  My   question is whether these items, that ilrl: referenced directly or indirectly in the 09 HSGP
                  guidance s w nstruction ilnd renovation section, would actually require waivers?

                  Given these items will only Involved mnor installation MOrA, I thought perhaps waive!S would not
                  be !1eCe5SiIry.

                  Thanks in advance for your guidance in this matter. Please let me know if you need additional
                  information to make this decision.

                  Thanks,

                  Brook



                  Suppo rting Documentation : [Draft Audit p. 17]

                  Responses to Recommendation Ifs 6·11 Pp. 17·18 Draft Aud k

                  The auditors reviewed many documents covering millions of dollars of spending and found a handful of
                  instances where supporting documentation for reimbursement was deemed to be insufficient. EOPSS
                  agrees that in these instances documentation supporting reimbursement for these costs was not as
                                                                                 n6 that EOPSS "notify all entities
                  strong as it should have been. We also agree w ith Recommendation
                  awarded Homeland Security Grant Program Funds af the requirement to use and follow Federal, State,
                  and focal procurement policies and standards as required jor purchasing or acquiring equipment and
                  services. " Although EOPSS does do this within its contracting documents, ongoing outreach and
                  education around these requirements is nonetheless warranted.        EOPSS has already begun to provide
                  this additional outreach by holding conference calls and meetings with sub-recipients to discuss these
                  very issues. On January gil" EOPSS held a mandatory meeting with all FFY 2012 state share SHSPand
                  UASI sub-recipients to review laws and regulations governing the grant as well as general grant
                  managem ent practices, common probl ems and audit findings.



                                                                                                                           14
                  January, 2013




www.oig.dhs.gov                                                       44                                                        OIG-13-44
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                                  Massachu setts Response to DHSjOIG Draft Aud it

                  Similarly, EOPSS generally agrees with Recommendations, 7 and 8 that speak to the need to ensure that
                  sub.recipients understand that they must compl y with feder.. 1competi tive procurement practices even
                  where state procurement laws may provide exemptions, to include such education and oversight in sub·
                  recipient monitoring and to continue to conduc t more and well documented equipment spot checks.

                  Again, EOPSS has already spoken to the Regional Homeland Security Councils, their fiduciary agent and
                  the City of Boston Office of Emergency Management regarding the difference in state and federal rules
                  around competitive procurement for training.

                  EOPSS also agrees generally with recommendation # 9 that calls for more equipment spot checks and to
                  ensure that sub-recipients develop and sustain a property management system that meets federal
                  requirements. While we feel that our homeland security regions' property management system meets
                  federal standards, we nonetheless agree that property management and equipment checks can always
                  be improved upon and require ongoing attention. We will work with our staff to conduct more spot
                  checks when out at Regional meetings and ensure that the fiduciary for the Homeland Security Regions
                  documents their equipment checks, even when they are not pre-planned but occur during the course of
                  a business meeting.

                  EOPSS does not agree with Recommendation 10 regarding recovering what it deems as unallowable
                  cos t s related t o the trench rescue simulator for which EOPSS and the City of Boston received written
                  approval from DHS as documented in the e-mail exchange on pages 10 & 11.

                  EOPSS agrees with recommendation 11 that adequate supporting documentation needs to be obtained
                  before reimbursing sub-recipients. EOPSS demonstrated our rigorous, three-level reimbursement
                  review process to the auditors.   Nonetheless, we do agree that the audit team did find examples where
                  supporting documentation could and should have been stronger. EOPSS will continue to work with our
                  staff and sub-recipients to ensure that supporting documentation is always sufficient. We will pay
                  particular additional attention to the issue of who is signing off on the time sheets of contractors who
                  are performing services under the grant, as well as reinforcing our existing requirement that backfill and
                  overtime reimbursements be supported by actual payroll records. The fiduciary agent already collects
                  these but EOPSS recognizes that compliance with this requirement was less than 100% and we have
                  already begu n to discuss the issue with those sub-recipient s that may not have fully understood the
                  requirement.




                                                                                                                             15
                  January, 2013




www.oig.dhs.gov                                                     45                                                            OIG-13-44
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix C
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help State and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the States and Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the State Homeland Security Strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable
      costs for the urban areas are consistent with the SHSP. Funding is expended based
      on the Urban Area Homeland Security Strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps Program
   •	 Operation Stonegarden (beginning FY 2010)




www.oig.dhs.gov                              46                                 	    OIG-13-44
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix D
   Number of Days Elapsed Between Required Obligation and
   Availability
                         Date FEMA      Funds Required    Actual Date
                                                                        Number of
      Subgrantee        Awarded Funds   To Be Obligated   Funds Were
                                                                        Days Late
                           to State     Within 45 days     Obligated
                         08/29/2008       10/13/2008      12/09/2009      422
       Northeast         08/21/2009       10/05/2009      12/21/2010      442
        Region           09/13/2010       10/28/2010      05/27/2011      211
                         09/01/2011       10/16/2011      03/15/2012      151
                         08/29/2008       10/13/2008      12/09/2009      422
       Southeast         08/21/2009       10/05/2009      12/06/2010      427
        Region           09/13/2010       10/28/2010      05/27/2011      211
                         09/01/2011       10/16/2011      03/15/2012      151
                         08/29/2008       10/13/2008      12/09/2009      422
                         08/21/2009       10/05/2009      12/06/2010      427
    Western Region
                         09/13/2010       10/28/2010      05/27/2011      211
                         09/01/2011       10/16/2011      03/15/2012      151
                         08/29/2008       10/13/2008      12/09/2009      422
                         08/21/2009       10/05/2009      12/06/2010      427
    Central Region
                         09/13/2010       10/28/2010      05/27/2011      211
                         09/01/2011       10/16/2011      03/15/2012      151
                         08/29/2008       10/13/2008      03/27/2009      165
      Boston UASI        08/21/2009       10/05/2009      12/10/2010      431
        Region           09/13/2010       10/28/2010      02/12/2012      472
                         09/01/2011       10/16/2011      02/27/2012      134
                         08/29/2008       10/13/2008      04/06/2009      175
     Metropolitan
                         08/21/2009       10/05/2009      10/25/2010      385
     Area Planning
                         09/13/2010       10/28/2010      03/04/2011      127
        Council
                         09/01/2011       10/16/2011      11/29/2011      44
   Source: DHS OIG. 





www.oig.dhs.gov                               47                                OIG-13-44
                                 OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix E
   Potential Monetary Benefits
                                  Classification of Monetary Benefits
                                                        Questioned
                                            Funds To                    Questioned
                                  Rec.                     Costs –
              Finding                       Be Put to                    Costs –        Total
                                   No.                  Unsupported
                                           Better Use                     Other
                                                            Costs

    Total funds that exceeded
    the statutory limits for
                                   4                                    $3,912,772   $3,912,772
    management and
    administrative expenses

    Unallowable costs of
    construction of the Trench     10                                    $157,000     $157,000
    Rescue Simulator

    Total                                                               $4,069,772   $4,069,772
   Source:ffDHS OIG. 





www.oig.dhs.gov                                   48                                       OIG-13-44
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix F
   Major Contributors to This Report
   Michael Siviy, Director
   Dennis Deely, Audit Manager
   David Porter, Auditor
   Sandra Ward-Greer, Auditor
   Frank Lucas, Auditor
   Lindsey Koch, Auditor
   Kelly Herberger, Communications Analyst
   Marisa Coccaro, Independent Referencer




www.oig.dhs.gov                              49                 OIG-13-44
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  50                        OIG-13-44
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
